<html>
<title> - GRAZING</title>
<body><pre>[Senate Hearing 108-680]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-680

                                GRAZING

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   TO

 REVIEW THE GRAZING PROGRAMS OF THE BUREAU OF LAND MANAGEMENT AND THE 
FOREST SERVICE, INCLUDING PERMIT RENEWALS, RECENT AND PROPOSED CHANGES 
  TO GRAZING REGULATIONS, AND RELATED ISSUES; AND TO EXAMINE THE WILD 
      HORSE AND BURRO PROGRAM, AS IT RELATES TO GRAZING, AND THE 
     ADMINISTRATION'S PROPOSAL FOR SAGE GROUSE HABITAT CONSERVATION

                               __________

                             JUNE 23, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-667                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman
GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Carolina
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Casabonne, Mike G., President, New Mexico Public Lands Council, 
  Hope, NM.......................................................     9
Craig, Hon. Larry E., U.S. Senator From Idaho....................     2
Domenici, Hon. Pete V., U.S. Senator From New Mexico.............     1
Groseta, Peter Andrew, Chairman, Federal Lands Committee, 
  National Cattlemen's Beef Association, Cottonwood, AZ..........     3
Hughes, Jim, Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    27
Kyl, Hon. Jon, U.S. Senator From Arizona.........................     3
Skinner, Bob, on behalf of the sheep and cattle rancher members 
  of the Public Lands Council and the National Cattlemen's Beef 
  Association....................................................    16
Thompson, Tom, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    32

 
                                GRAZING

                              ----------                              


                        WEDNESDAY, JUNE 23, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:17 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. This is the subcommittee hearing. I am 
chairman of the full committee. The subcommittee chairman is 
Senator Craig. He will be along shortly, in which event I will 
probably be in and out.
    I want to do what he had suggested, that we take the 
visiting witnesses first. So, Mr. Hughes from the Department, 
would you wait, and if the three witnesses that have come to us 
from other States, would they take the witness stand and let us 
get started?
    Mr. Chairman.
    Senator Craig. Senator Domenici.
    The Chairman. Before you proceed--and I thank you for 
coming up here. This has been a difficult day for us. It is not 
like we have run away from you. It is just that we had seven 
votes. That is very unusual. You cannot come up here and go 
back down. So that is where we were.
    I want to thank the three witnesses that came from out 
West, Mr. Skinner, Mr. Casabonne, and Mr. Groseta, because it 
is very important that we hear from you. We will hear from the 
Federal people.
    I just want to say a simple kind of proposition. We started 
years ago trying to get both the BLM and the Forest Service 
where they would get caught up on their permitting, and that if 
they did not and it was no fault of the permittee, we kept on 
year after year passing amendments that would not in any way 
cause your leases to be changed by that problem.
    We have gotten to the point now where we have done that for 
10 or 12 years, and I hope that we finish up here today with 
some understanding by the Federal Government on what their 
responsibility is. And is it a question of money or not? And 
can we get this thing under control some way? It is just awful 
that with all the management tools we have got that we cannot 
do this. Frankly, we have pushed them very hard in our State, 
hard enough that I do not want to do that anymore. I am here to 
tell them they have got to push hard in every State.
    With that, I yield to the subcommittee chairman and I will 
be back in a while.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you for stopping 
by.
    Certainly public land grazing in New Mexico is every bit as 
important to that State as public land grazing is in my State 
of Idaho or the Senator from Arizona's State or any other 
western public land State where the livestock industry still 
plays a major role in overall agricultural economies and 
production.
    So this is a second oversight hearing that we have held, 
one about a year ago this time, that is reflective of what the 
chairman has spoken to, and that is trying to get it right in 
cattle country, understanding and hoping to send a message to 
the agencies and to other interested parties that grazing is an 
important use of our public resources and done responsibly and 
wisely, as we think it is.
    So, gentlemen, we thank you for being here.
    I am going to turn to my colleague from Arizona for an 
introduction of a constituent, and then I will move to the 
balance of you. Then we will get your testimony.
    [The prepared statement of Senator Craig follows:]

        Prepared Statement of Hon. Larry E. Craig, U.S. Senator 
                               From Idaho

    Good afternoon and welcome. Today's oversight hearing is on grazing 
programs on Forest and BLM administered Federal Lands. I want to 
welcome Senator Domenici, Chairman of the Full Committee, Senator 
Wyden, our Ranking Member for the Subcommittee and our other members.
    Also, I want to welcome Mr. Jim Hughes, Deputy Director for the 
Bureau of Land Management; and Mr. Tom Thompson, Deputy Chief for the 
Forest Service. And our other witnesses, all ranchers who deal with 
these issues daily:

  <bullet> Mr. Andy Groseta, Chairman of NCBA's Federal Lands 
        Committee, from Cottonwood, Arizona,
  <bullet> Mr. Mike Casabonne, President, Public Lands Council of the 
        New Mexico Cattlegrowers' Association from Hope, New Mexico,
  <bullet> Mr. Bob M. Skinner with the Oregon Cattlemen's Association 
        from Jordan Valley, Oregon.

    This is the second oversight hearing we have held on this issue in 
as many years. The ranching industry has been under assault for some 
time. Whether by benign neglect, lack of adequate priority or interest, 
or intentional anti-grazing actions of the past decade, we have reached 
a state of urgency for addressing our federal grazing programs. The new 
players this administration has put in place have shown a commitment to 
solving these problems, and maybe we are beginning to turn the corner, 
but there is still much to do. It is my intention to continue with 
oversight hearings in the future until I'm confident that there has 
been sufficient progress that we have sustainable programs on the 
ground that will support a viable industry.
    As a former rancher, I know the benefits and challenges of grazing. 
In Idaho, cattle industry is one of our most valuable agricultural 
products.
    I support grazing because I believe multiple use of public lands is 
a win-win situation. Ranchers are good stewards of the land. They know 
that their livelihoods are dependent upon the land, and if they abuse 
it, they will not prosper.
    Grazing also reduces the risk of fire potential by reducing the 
fuel load of the land and is an important tool in combating invasive 
non-native weeds.
    What these hearings are about is ensuring the continued use of 
public lands for grazing in ways that protect the environment.
    Today, we will hear from the Administration about the current 
status of their current grazing programs and their progress on 
rangeland management.
    I have asked the BLM to speak on the current management situation 
with respect to wild horses and burros on the public rangelands. This 
program is intended to consider other resources such as wildlife and 
vegetation, and-other uses such as livestock grazing and recreation. 
But the problems that come with these growing populations, have been 
compounded by years of drought and vast areas of wildfire. Management 
tools are minimal, very expensive and seem to have marginal 
effectiveness. I look forward to hearing more about this important 
rangeland issue.
    We will also hear about the Administration's proactive approach on 
sage grouse habitat conservation.
    I welcome our witnesses that are here today. We are eager to hear 
your plans and concerns, and want to assist you whenever possible.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Well, thank you, Mr. Chairman. I am just going 
to take a second because everybody has been waiting far too 
long here.
    But Andy Groseta is not just a constituent of mine, but a 
friend and a rancher that is well representative of the problem 
of the cattlemen generally in our Western States where we have 
drought, where there have been cutbacks. He will tell you there 
are folks who have not had cattle on their allotments for years 
because of a variety of circumstances.
    And I share the comments that both you and the chairman of 
the full committee have made. We have got to do a better job of 
coordinating with our agencies and the folks that are out there 
trying to make a living. It is tough enough, with all the 
conditions that we have to deal with, when we do not have a 
Government that is necessarily as responsive as it can and 
should be. It is up to us to help make that happen.
    But Andy Groseta will be speaking for the National 
Cattlemen's Beef Association, but I know he will tell the story 
of the Tonto Forest in Arizona too.
    I want to welcome him and welcome all of you and apologize 
in advance for having to leave. We are all now way backed up 
today. So you will see us come in and out of the meeting. But 
we will have the full record in front of us. We will debrief 
the chairman, and the fact that there are not as many people 
here does not mean there is a lack of interest. It is just the 
fact that we have had this kind of a day.
    I thank you, Mr. Chairman, for holding this extraordinarily 
important hearing.
    Senator Craig. Jon, thank you very much.
    Andy, thank you for joining us. Mike Casabonne, president, 
Public Lands Council of New Mexico Cattlegrowers' Association 
from Hope, New Mexico. Bob Skinner, a gentleman I have known 
for a good long while, from the Oregon Cattlemen's Association 
from Jordon Valley, Oregon. Gentlemen, we thank you. Andy, we 
will start with you. Please proceed.

         STATEMENT OF PETER ANDREW GROSETA, CHAIRMAN, 
FEDERAL LANDS COMMITTEE, NATIONAL CATTLEMEN'S BEEF ASSOCIATION, 
                         COTTONWOOD, AZ

    Mr. Groseta. Thank you, Senator. Good afternoon, Chairman 
Craig and Senator Kyl.
    My name is Peter Andrew Groseta, and I am a third 
generation cattle rancher from the Verde Valley in north 
central Arizona. My family came to the Verde Valley at the turn 
of the last century to work in the copper mines in Jerome, 
Arizona. In 1922, my father's family moved to a ranch in Middle 
Verde and in 1936 to Cottonwood, where our ranch operations are 
headquartered today.
    We are a family run ranching operation. My father passed 
away in May 2000 and my mother still lives on the ranch. We are 
in the cow/calf business. For 20 years, we owned and operated 
two ranches, the cow/calf operation and a stocker operation. We 
have sold our native yearling cattle to feeders in California, 
Texas, Oklahoma, Colorado, and Kansas. With severe drought 
conditions that started in the mid 1990's, we sold our stocker 
ranch. In addition, we downsized our cow herd to a core herd 
trying to retain the genetics in our cattle that have been 
developed and improved upon for 82 years.
    I also serve as chairman of the Federal Lands Committee of 
the National Cattlemen's Beef Association. I appreciate the 
opportunity to be here today to provide some of my experience 
in public lands grazing to the committee on behalf of the sheep 
and cattle rancher members of the Public Lands Council and 
National Cattlemen's Beef Association.
    Restocking the Tonto National Forest and range monitoring. 
Arizona, along with the rest of the Southwest, has been 
severely stricken by drought for the last several years. 
Because of drought and other issues, animal unit months on 
Forest Service land has been reduced on the Tonto National 
Forest by nearly 80 percent, and the area's ranching community 
has suffered. As you can well imagine, this drastic reduction 
in AUM's has created a distrust of the Forest Service among the 
ranchers who question the drought required reductions at the 
scale imposed.
    The Public Lands Council and NCBA recognize the drought is 
a serious resource issue. We have also worked hard to ensure 
that agency decisions are based on science, facts, and policy 
and not on the personal biases of individual agency employees. 
Clearly the cooperation of all affected parties will be 
required to enable the Forest Service to effectively fulfill 
its multiple use mandate for managing public lands.
    Fortunately, signs of such cooperation with the Forest 
Service, the Bureau of Land Management, the NRCS, and a number 
of State partners are beginning to emerge to at least give rise 
to hope that the lands can be managed in a sensible manner that 
recognizes the needs of both resource condition and local 
ranching communities.
    First, the U.S. Forest Service, the NCBA, the Public Lands 
Council, the Arizona Cattle Growers, along with the Gila County 
Cattle Growers' Association, have recently teamed up and signed 
an agreement called the Tonto Restocking Agreement to restock 
cattle on Arizona's Tonto National Forest. The Tonto National 
Forest will expedite the return of as many cattle as 
supportable by forage conditions on these allotments.
    An integral element of the restocking program is that 
monitoring data will be used to support decisions about cattle 
numbers on the ground, reducing the chance that personal biases 
can influence resource decisions. The resource information 
produced by third parties will help stabilize grazing 
management both for ranchers and for the Forest Service.
    Grazing permit renewal. It is imperative to the financial 
success of a public lands ranching operation that permits to 
graze on those public lands be renewed in a timely manner when 
they expire. Ranchers who run cattle on Federal land need and 
deserve a stable regulatory environment within which to 
operate.
    The U.S. Forest Service grazing permit backlog in 
particular is tremendous and would put our members' operations 
at risk in the absence of existing protective language. We 
understand the Forest Service will not be able to eliminate 
this backlog in the 4 remaining years of the new legislation.
    Given these times of large budget deficits, it seems 
unlikely that Congress will provide the additional funds needed 
to eliminate the permit backlog. We, therefore, urge members to 
consider whether additional reform of NEPA is warranted to help 
with the problem.
    Vacant allotments. Perhaps one of the more important issues 
facing the public land grazing industry and Federal land 
managers is what to do about the increasing number of vacant 
allotments appearing throughout the West on Federal lands. PLC 
and NCBA is opposed to proposals for Federal policy that favors 
eliminating the infrastructure needed to support grazing on 
public lands. Vacant allotments in the Federal Government's 
inventory should be made available to existing ranching 
operations before they are considered for other uses. In 
particular, we oppose legislation introduced by Congressmen 
Grijalva and Shays to fund permanent retirement of Federal 
grazing permits. This position is consistent with those in and 
out of the Government who recognize the value of keeping 
ranches intact. This position is also consistent with those who 
support the principle of the multiple use of public lands in 
which grazing is a co-equal use of those lands.
    Still, we recognize that some ranchers may want to get out 
of the business and there is not always someone ready to step 
in behind them to take their place. We also believe that 
ranchers get forced out of business by overly zealous 
regulation of operations by Federal employees. Land use 
conflicts between ranching and predators also make continued 
operations untenable for some.
    Voluntary or forced relinquishment of grazing permits is 
particularly painful for ranchers because of the economic value 
conferred by possession of a permit is recognized in the 
marketplace and is part of the business assets maintained by 
ranchers with livestock grazing on public lands. Even 
environmentalists recognize the economic value of permits, as 
indicated by their willingness to compensate ranchers for that 
value in the Grijalva/Shays bill. The point here is that when 
ranchers leave or are forced off their Federal allotments, they 
also lose part of their equity value of their businesses, as 
well as part of their way of life.
    In closing, I want to thank you for the opportunity to 
present the views of the Public Lands Council and the National 
Cattlemen's Beef Association to the subcommittee on issues 
facing ranchers grazing livestock on public lands. I would be 
pleased to answer any questions. Thank you.
    [The prepared statement of Mr. Groseta follows:]

   Prepared Statement of Peter Andrew (``Andy'') Groseta, Chairman, 
  Federal Lands Committee, National Cattlemen's Beef Association, and 
             Owner, W Dart Ranch, dba Groseta Ranches, LLC

    Good afternoon, Chairman Craig and distinguished members of this 
subcommittee, my name is Peter Andrew Groseta; and I am a third-
generation cattle rancher from the Verde Valley, in north central 
Arizona. My family came to the Verde Valley at the turn of the last 
century to work in the copper mines in Jerome, Arizona. In 1922, my 
father's family moved to a ranch in Middle Verde, and in 1936 to 
Cottonwood, where our ranch operations are headquartered today.
    We are a family-run ranching operation. My father passed away in 
May of 2000, and my mother still lives on the ranch. We are in the cow/
calf business. For 20 years, we owned and operated two ranches, a cow/
calf and a stocker operation.
    We have sold our native yearling cattle to feeders in California, 
Texas, Oklahoma, Colorado and Kansas. With severe drought conditions 
that started in the mid 1990s, we sold our stocker ranch. In addition, 
we downsized our cow herd to a ``core'' herd trying to retain the 
genetics in our cattle that have been developed and improved upon for 
82 years.
    Our present ranch consists of approximately 25,000 acres. This 
includes private (deeded), state and Forest Service lands. The ranch 
consists of 88 percent Forest Service lands.
    My wife, Mary Beth, and I have raised three children, one son and 
two daughters, who are all presently enrolled at the University of 
Arizona, majoring in agriculture. Our son, who graduates this December, 
would like to come back to run the ranch after he receives his college 
degree. It is very gratifying, as a parent, to have our children 
(fourth generation) carry on the family ranching business. In these 
times, we are seeing less and less family-owned ranches in the West. 
With more and more government regulations (ESA, CWA, NEPA, etc.) and 
estate tax issues, it is making it more difficult for family ranches to 
continue to remain profitable and stay in business.
    I also serve as Chairman to the Federal Lands Committee of the 
National Cattlemen's Beef Association. I appreciate the opportunity to 
be here today to provide some of my experience in public lands grazing 
to the Committee on behalf of the sheep and cattle rancher members of 
the Public Lands Council and the National Cattlemen's Beef Association.
    The Public Lands Council (PLC) represents sheep and cattle ranchers 
in 15 western states whose livelihood and families have depended on 
federal grazing permits dating back to the beginning of last century. 
The National Cattlemen's Beef Association (NCBA) is the trade 
association of America's cattle farmers and ranchers, and the marketing 
organization for the largest segment of the nation's food and fiber 
industry.
    Ranching out west has been part of the landscape, the economy, and 
the culture for approximately three centuries. About 214 of the 262 
million acres managed by BLM are classified as ``rangelands,'' as are 
76 million of the 191 million acres managed by the Forest Service. More 
than 23,000 permittees, their families, and their employees manage 
livestock to harvest the annually renewed grass resource grown on this 
land. Western ranching operations provide important additional benefits 
to the Nation by helping to preserve open space and reliable waters for 
wildlife, by serving as recharge areas for groundwater, and by 
supporting the economic infrastructure for rural communities. Our 
policy is to support the multiple-use and sustained-yield of the 
resources and services from our public lands which we firmly believe 
brings the greatest benefit to the largest number of Americans. Both 
PLC and the NCBA strive to create a stable regulatory environment in 
which our members can thrive.

             RESTOCKING THE TONTO AND RANGELAND MONITORING

    Arizona, along with the rest of the southwest, has been severely 
stricken by drought for the last several years. Because of drought and 
other issues, Animal Unit Months (AUMs) on Forest Service land has been 
reduced on the Tonto National Forest by nearly 80 percent, and the 
area's ranching community has suffered. As you can well imagine, this 
drastic reduction in AUMs has sown distrust of the Forest Service among 
the ranchers, who question whether the drought required reductions at 
the scale imposed. The Public Lands Council and NCBA recognize the 
drought is a serious resource issue with which to be grappled. We, have 
also worked hard to ensure that agency decisions are based on facts and 
policy, and not on the personal biases of individual agency employees. 
Clearly, the cooperation of all affected parties will be required to 
enable the Forest Service to effectively fulfill its multiple-use 
mandate for managing public lands.
    Fortunately, signs of such cooperation with the Forest Service, 
BLM, NRCS, and a number of state partners are beginning to emerge to at 
least give rise to the hope that the lands can be managed in a sensible 
manner that recognizes the needs of both resource condition and local 
ranching communities. First, the U.S. Forest Service (USFS), NCBA, PLC, 
and Arizona and Gila County Cattle Growers have recently teamed up to 
restock grazing cattle on Arizona's Forest Service land. The Tonto 
National Forest Restocking Agreement signed by Arizona-based 
representatives of the USFS, the Arizona Cattle Growers Association, 
and Gila County Cattle Growers will expedite the return of as many 
cattle as supportable by forage conditions on allotments.
    Having the ranchers and the Forest Service work collaboratively on 
this project has offered an opportunity to begin rebuilding trust 
between the Agency and the ranching industry and provides a broader 
perspective for the Agency to administer National Forest lands 
collaboratively with important forest stakeholders. Forest Service 
participation in this project is important agency recognition of the 
important contributions ranchers make to rural economies and to the 
benefits of helping keep large landscapes intact.
    Key components of the Tonto Restocking Program include:

  <bullet> A Coordinated Resource Management Task Force comprised of 
        qualified range technicians representing the Forest Service, 
        Arizona Association of Conservation Districts, University of 
        Arizona, and Natural Resources Conservation Service, will 
        assist ranchers with monitoring and planning strategies for 
        each grazing allotment.
  <bullet> Technical Resource Team members will assess resource 
        conditions and provide stocking options for individual grazing 
        allotments.
  <bullet> If the team determines that stocking is appropriate, 
        alternatives will be presented addressing stocking levels under 
        various management situations.
  <bullet> Options presented by the Technical Resource Team will be 
        used by Forest Service line officers when making decisions 
        regarding stocking.
  <bullet> Ranchers will stock allotments in accordance with the line 
        officer's decision. The line officer will use monitoring based 
        on recommendations provided by the team in determining if 
        numbers need to be adjusted. Ranchers will subsequently adjust 
        livestock numbers, either up or down, as directed by the line 
        officer.
  <bullet> All recommendations will be made by allotment on a case-by-
        case basis and conform to all legal requirements and agency 
        policies.

    An integral element of the restocking program is that monitoring 
data will be used to support decisions about cattle numbers on the 
ground, reducing the chance that personal whim can drive resource 
decisions. The Tonto National Forest restocking effort is an extreme 
example of why industry concluded that the long-term viability of 
grazing on public lands depends on the availability of reliable 
information upon which to make management decisions. The resource 
information produced by third parties will help stabilize grazing 
management both for ranchers and for the Forest Service.
    The Forest Service and the Natural Resources Conservation Service 
have supported monitoring on the Tonto National Forest in other ways as 
well. Both agencies have contributed funding to support additional 
staff positions to give monitoring the attention it needs. 
Additionally, both agencies have worked to implement a program of 
financial assistance to ranchers through the Farm Bill Environmental 
Quality Incentives Program who implement rotational grazing systems on 
their public land allotments. The purpose of the program is to conserve 
the forage resource on the public lands, and to support the economic 
viability of ranching operations during difficult economic times 
because of the drought. Many people in and out of the administration 
understand that keeping intact ranching operations on public and 
private lands is among the most effective means for keeping large 
landscapes intact with the attendant wildlife habitat benefits of those 
landscapes. The EQIP dollars will help accomplish this important 
conservation goal. We appreciate the support of NRCS and the Forest 
Service for restoring responsible grazing on the Tonto National Forest.
    Our support for monitoring extends to seeking additional 
appropriations. In FY05, PLC and NCBA supported increased funding for 
the BLM's monitoring budget through the range program. We were unable 
to request additional funding for the Forest Service because, unlike 
the BLM, they were unable to directly, concretely account for where the 
money was spent. We will continue to seek funding for monitoring where 
the agencies can directly account for the use of those additional 
dollars.

                         GRAZING PERMIT RENEWAL

    It is imperative to the financial success of a public lands 
ranching operation that permits to graze on those public lands be 
renewed in a timely manner when they expire. Ranchers who run cattle on 
federal land need and deserve a stable regulatory environment within 
which to operate. A business cannot remain economically viable when its 
capital is in question due to the federal government's lack of ability 
to meet its obligations. Last year, Congress took the important step of 
enacting legislation to ensure that permits would not be interrupted 
for a period of five years while the agencies strive to eliminate their 
backlog of permits for which they have not completed required NEPA 
documentation.
    The U.S. Forest Service's grazing permit backlog, in particular, is 
tremendous and would put our members' operations at risk in the absence 
of existing protective language. We understand the Forest Service will 
not be able to eliminate this backlog in the four remaining years of 
the new legislation. We urge Congress to take a comprehensive look at 
permit renewal issues to come up with a long-term solution that takes 
into account the need to provide a stable regulatory framework for 
ranchers throughout the west as well as the needs of the agency to 
complete their work.
    Given these times of large budget deficits, it seems unlikely that 
Congress will provide the additional funds needed to eliminate the 
permit backlog. We therefore urge members to. consider whether 
additional reform of NEPA is warranted to help with the problem. 
Grazing allotments with small numbers of cattle, or whose resource 
condition has been demonstrably stable over many years, or on which 
threatened or endangered species do not reside may not require the same 
level of NEPA attention as do allotments with more complicated and 
important resource issues. PLC and NCBA have long-believed that federal 
land management dollars are better spent on managing resources than on 
producing documentation that adds little value to understanding 
resource issues on the ground.

                           VACANT ALLOTMENTS

    Perhaps one of the more important issues facing the public land 
grazing industry and federal land managers is what to do about the 
increasing number of vacant allotments appearing throughout the west on 
federal lands. PLC/NCBA's starting point in addressing this question is 
opposition to proposals for federal policy that favors eliminating the 
infrastructure needed to support graze public lands. In particular, we 
oppose legislation introduced by Congressmen Grijalva and Shays to fund 
voluntary relinquishments of federal grazing permits. This position is 
consistent with those in and out of the government who recognize the 
value of keeping ranches intact for keeping large landscapes intact. 
This position is also consistent with those who support the principle 
of multiple-use of public lands in which grazing is a co-equal use of 
the lands together with waterflows, fish, wildlife, recreation, and 
timber.
    Still, we recognize that some ranchers want to get out of the 
business and there is not always someone ready to step in behind them 
and take their place in the operation. We also believe that ranchers 
get forced out of business by overly zealous regulation of operations 
by federal employees. Land-use conflicts between ranching and predators 
also make continued operations untenable for some.
    Relinquishment of grazing permits is particularly painful for 
ranchers because the economic value conferred by possession of a permit 
is recognized in the marketplace and is part of the business assets 
maintained by ranchers with livestock grazing on public lands. Apart 
from whether holding a grazing permit is legally recognized as a 
property right, the permits are bought and sold as part of larger ranch 
transactions, banks loan money on permits, and the Internal Revenue 
Service taxes ranchers on the value conferred by permits. Even 
environmentalists recognize the economic value of permits as indicated 
by their willingness to compensate ranchers for that value in the 
Grijalva/Shays bill. The point here is that when ranchers leave or are 
forced off their federal allotments, they also lose part of the value 
of their businesses as well as a part of their way of life.
    Whatever the specific cause, both the BLM and the FS have a number 
of vacant allotments on their rolls which are not retired to other uses 
and are not being actively used for grazing. PLC and NCBA are concerned 
that these grazing allotments be made available in the first instance 
to other ranchers to use either individually or to manage collectively 
to optimize the size of their ranching operations. Should other 
ranchers not wish to avail themselves of surplus allotments, then the 
allotments should be held in reserve by the federal agencies for times 
when drought or other causes requires more forage to be available for 
grazing to minimize the impact of adverse conditions on any single 
allotment.
    These reserved allotments should be considered part of a working 
ranching landscape. At no time should grazing allotments be set aside 
for conservation use.

                               CONCLUSION

    I want to thank you for the opportunity to present the views of the 
Public Lands Council and National Cattlemen's Beef Association to the 
subcommittee on issues facing ranchers grazing livestock on public 
lands. I would be pleased to take any questions members of the 
subcommittee may have for me.

    Senator Craig. Andy, thank you very much.
    Mike, we will turn to you.

          STATEMENT OF MIKE G. CASABONNE, PRESIDENT, 
           NEW MEXICO PUBLIC LANDS COUNCIL, HOPE, NM

    Mr. Casabonne. Mr. Chairman, distinguished members of the 
committee, I appreciate the opportunity to testify here in 
behalf of New Mexico Public lands Council. My name is Mike 
Casabonne. I am a rancher in southeastern New Mexico. I raise 
sheep and cattle on intermingled privates, Federal, and State 
land. I grew up on the ranch that our family continues to 
operate near Hope, New Mexico. My family has been ranching in 
southeastern New Mexico since the early 1900's.
    I would specifically like to talk to you today about 
rangeland monitoring on Federal land used for livestock grazing 
and the proposed changes to the Bureau of Land Management's 
grazing regulations and some other topics related to Federal 
land livestock grazing.
    New Mexico's livestock producers support the collection of 
monitoring data on Federal rangeland. We believe it is 
essential for Federal land managers and ranchers alike to have 
access to results of long-term vegetative monitoring to 
adequately assess the condition of rangeland and to be able to 
manage it in the best interests of the rancher as well as the 
public. It is also essential to document our record of good 
stewardship of Federal grazing land.
    The BLM in New Mexico has a good record of data, especially 
in the southern part of the State. The New Mexico Department of 
Agriculture and the Range Improvement Task Force of New Mexico 
State University have contributed to agency expertise in 
collecting and analyzing monitoring data, and the record of 
data, along with the involvement of university scientists and 
the academic community in the Public Rangeland Improvement Act, 
PRIA's section 8 process has been instrumental in averting or 
resolving conflict between the BLM and ranchers in contrast to 
what has occurred in other areas and on U.S. Forest Service 
administered lands where there is little or no data. This 
system, we feel, is a model that would benefit agency range 
management west-wide.
    We believe the record of data is invaluable to all parties 
concerned with range management, including ranchers and the 
land management agencies, and we must not break the continuity 
of that record, where it exists, and build a record where there 
is none.
    In addition to our belief that the collection of monitoring 
data leads to better management of range resources, it is also 
a statutory requirement of the BLM and the Forest Service to 
collect and analyze data on the condition and trend of Federal 
rangeland. The numerous statutes are detailed in my written 
testimony.
    The data collected should be of physically measurable 
characteristics, repeatable, and demonstrate consistent results 
over time. Change in range condition normally happens slowly in 
arid climates and under such conditions, a one-point-in-time 
assessment of rangeland is not useful. The data must be 
collected over several growing seasons to be of maximum value. 
Long-term, quantitative vegetative monitoring has proven to be 
the most accurate method of assessing range condition and 
trend.
    In addition to vegetative monitoring, data is needed on the 
impacts of uses other than livestock grazing. Methods to assess 
forage use specifically by different species of wildlife, 
impacts by oil and gas production and recreational use need to 
be developed. It should not be assumed that all impacts of use 
are attributable to livestock grazing.
    If more resources were directed to monitoring, then many of 
the other problems that drain off personnel and budget 
resources would be avoided.
    New Mexico livestock organizations, in cooperation with New 
Mexico State University and the Department of Agriculture and 
Soil and Water Conservation districts have encouraged rancher 
monitoring. But even if the agencies have the full cooperation 
of the ranching community in a cooperating monitoring program, 
it will be unrealistic to expect that the industry will be able 
to collect data, to provide the level of data that is needed to 
accomplish the task.
    Whatever the industry response may be to rancher 
monitoring, the agencies are still legally required to collect 
data and ranchers should not be expected to assume that much of 
the agencies' responsibilities. If agency budget and personnel 
limits are constraints on monitoring, ranchers' resources in 
those areas are even more limited.
    We have another problem with the implementation of the 
standards and guidelines. The Standards of Public Land Health 
and the Guidelines for Grazing Management are being implemented 
in New Mexico and across the West. ``Rangeland health'' is a 
term the agencies have begun to use to replace ``range 
condition,'' and we believe the term ``health'' is less 
appropriate to describe rangeland. If health is less than 
optimum, the assumption is made that there is an illness with a 
cause that should be remedied, and we do not believe these 
analogies fit rangeland.
    As a first step in the process, BLM field offices in the 
State have begun a process they call watershed assessment using 
a handbook entitled Interpreting Indicators of Rangeland 
Health. This methodology is not science-based and results in an 
evaluation that is highly subjective.
    Another problem that we have with this process is it is a 
one-point-in-time assessment that we do not believe is valid. 
We think that quantitative vegetative monitoring, as we 
mentioned before, is still the best way to assess range 
condition and that the indication of the vegetative monitoring 
is still the best measure of rangeland health.
    We also have some issues with the U.S. Forest Service, and 
the relationship between the Forest Service and the ranching 
community is not good. We understand that there are some steps 
being taken toward solutions, and the recent instruction to 
Forest Service range personnel to incorporate section 8 of PRIA 
into their grazing allotment administration is a positive step. 
There is gratification that the Forest Service has become 
concerned enough with the plight of ranchers in the region that 
a separate working group has been tasked to address the 
problem. How on-the-ground issues are handled at the allotment 
level, however, will be the way that success in rebuilding the 
relationship is judged. We will do our part in that effort.
    We did have some other comments on the Endangered Species 
Act and NEPA compliance. We believe that the environmental 
assessments that are required to be done on permit renewal, if 
there could be a categorical exclusion applied to the permit 
renewal process, which I am sure you have heard before, but 
that would release the agency personnel so they would be able 
to do a lot more of this monitoring that we think would avert a 
lot of the costly legal problems and the conflict that happens 
now.
    But with that, I will conclude and say we also have some 
detailed comments on the BLM regulatory reform that are a part 
of the written comments.
    With that, I again would like to thank the committee for 
the opportunity to address you here today on behalf of the New 
Mexico Public Lands Council. I too would be willing to answer 
any questions that the committee may have.
    [The prepared statement of Mr. Casabonne follows:]

          Prepared Statement of Mike G. Casabonne, President, 
               New Mexico Public Lands Council, Hope, NM

    Mr. Chairman and distinguished members of the Committee, my name is 
Mike Casabonne. I am a rancher in southeastern New Mexico raising sheep 
and cattle on intermingled private, federal and state land. I grew up 
on the ranch that our family continues to operate near Hope, NM. My 
family has been ranching in southeastern New Mexico since the early 
1900's.
    I would specifically like to talk to you today about rangeland 
monitoring on federal land used for livestock grazing and the proposed 
changes to the Bureau of Land Management's (BLM's) grazing regulations 
and other topics related to federal land livestock grazing.

                           AGENCY MONITORING

    New Mexico's livestock producers support collection of monitoring 
data on federal rangeland. We believe it is essential for federal land 
managers and ranchers alike to have access to results of long-term 
vegetative monitoring to adequately assess the condition of rangeland 
to be able to manage it in the best interests of the rancher as well as 
the public. It is also essential to document our record of stewardship 
of federal grazing land.
    The BLM in New Mexico has a good record of data especially in the 
southern part of the state. That data has been a major factor 
contributing to the record of sound range management of southern New 
Mexico ranches. New Mexico State University (NMSU), the New Mexico 
Department of Agriculture (NMDA) and NMSU's Range Improvement Task 
Force have contributed to agency expertise in collecting and analyzing 
monitoring data.
    New Mexico has made extensive use of the provisions in Section 8 of 
the Public Rangelands Improvement Act (PRIA) that allow for 
consultation, cooperation and coordination among federal and state 
agencies and local private range users. The state of New Mexico and the 
BLM and Forest Service have MOU's that formalize that relationship. The 
record of data along with the involvement of university scientists and 
the academic community in the PRIA Section 8 process has been 
instrumental in averting or resolving conflict between the BLM and 
ranchers in contrast to what has occurred in other areas and on U.S. 
Forest Service (Forest Service) administered lands where there is 
little or no data. This system is a model that would benefit agency 
range management west wide.
    We believe the record of data is invaluable to all parties 
concerned with range management including ranchers and the land 
management agencies. We must not break the continuity of that record 
where it exists and begin to build a record where there is none.
    In addition to our belief that collection of monitoring data leads 
to better management of range resources it is also a statutory 
requirement of the BLM and Forest Service to collect and analyze data 
on the condition and trend of federal rangeland. Statutes mandating 
such data collection are listed as follows:
National Forest Management Act of 1976 (NFMA)

  <bullet> The National Forest Management Act (NFMA) of 1976 directs 
        the Forest Service to prepare land and resource management 
        plans (LRMP) for individual units of the National Forest 
        System. The forest plan ``provides for multiple use and 
        sustained yield of goods and services from the national 
        forest... in a way that maximizes long-term net public benefits 
        in an environmentally sound manner.''
  <bullet> The Land and Resource Management Plan (LRMP) must contain 
        four specific categories of findings and conclusions. This 
        includes that the LRMP must provide ``monitoring and evaluation 
        requirements that will provide a basis for periodic 
        determination and evaluation of the effects of management 
        practices.''
Forest and Rangeland Renewable Resources Planning Act of 1974 (RPA)

  <bullet> Sec. 2. Findings:
    <bullet> (3) to serve the national interest, the renewable 
            resources program must be based on a comprehensive 
            assessment of present and anticipated uses, demand for, and 
            supply of renewable resources from the Nations' public and 
            private forests and rangelands . . . .
    <bullet> (4) the new knowledge derived from coordinated public and 
            private research programs will promote a sound technical 
            and ecological base for effective management, use, and 
            protection of the Nations' renewable resources.
    <bullet> Sec. 6. (g)(2)(B) ``provide for obtaining inventory data 
            on the various renewable resources, and soil and water, . . 
            . .
  <bullet> Sec. 6g(3)(c) insure research on and (based on continuous 
        monitoring and assessment in the field) evaluation of the 
        effects of each management system to the end that it will not 
        produce substantial and permanent impairment of the 
        productivity of the land.
Federal Lands Policy and Management Act of 1976 (FLPMA)

  <bullet> Sec. 102. (a)(2) The national interest will be best realized 
        if the public lands and their resources are periodically and 
        systematically inventoried and their present and future use is 
        projected through a land use planning process coordinated with 
        other Federal and State planning efforts.
Public Rangelands Improvement Act of 1978 (PRIA)

  <bullet> Sec. 2. (b)(1) inventory and identify current public 
        rangelands conditions and trends as a part of the inventory 
        process required by Section 201(1) of FLPMA
  <bullet> Sec. 2. (b)(2) manage, maintain and improve the condition of 
        the public rangelands so that they become as productive as 
        feasible for all rangeland values . . . .
  <bullet> Sec. 4. (a) Following enactment of this Act, the Secretary 
        of the Interior and the Secretary of Agriculture shall update, 
        develop (where necessary) and maintain on a continuing basis 
        thereafter, an inventory of range conditions and record of 
        trends of range conditions on the public rangelands, and shall 
        categorize or identify such lands on the basis of the range 
        conditions and trends thereof as they deem appropriate. Such 
        inventories shall be conducted and maintained by the Secretary 
        as a part of the inventory process required by section 201 (a) 
        of the Federal Land Policy and Management Act (43 U.S.C. 1711). 
        and by the Secretary of Agriculture in accordance with section 
        5 of the Forest and Rangeland Renewable Resources Planning Act 
        of 1974 (16 U.S.C. 1603); shall be kept current on a regular 
        basis so as to reflect changes in range conditions; and shall 
        be available to the public.

    To be of most value the data collected should be of physically 
measurable characteristics, repeatable and demonstrate consistent 
results over time. There are widely accepted methods of collecting 
range monitoring data that involve transects to determine composition, 
ground cover, exclosures for utilization studies and various other 
techniques that have been proven to give useful data and repeatable 
results.
    Change in range condition normally happens slowly in arid climates, 
which describes most of our western rangelands. Under such conditions a 
one-point-in-time assessment of rangeland is not useful. Data must be 
collected over several growing seasons to be of maximum value. Long-
term, quantitative, vegetative monitoring has proven to be the most 
accurate method of assessing range condition and trend. The 'more years 
of data in the database, the more useful the information is.
    In addition to the quantitative vegetative monitoring, data is 
needed on the impacts of uses other than livestock grazing on 
rangeland. Methods to assess forage use specifically by different 
species of wildlife, impacts on forage production by oil and gas 
production and recreational use of federal lands need to be developed. 
It should not be assumed that all impacts of use are attributable to 
livestock grazing.
    Monitoring should be one of the agencies' highest priorities. If 
more resources were directed to that effort many of the other problems 
that drain off personnel and budget would be avoided.

                           RANCHER MONITORING

    New Mexico livestock organizations, in cooperation with NMSU, NMDA 
and Soil & Water Conservation districts have encouraged rancher 
monitoring, not to replace agency efforts, but for their own use in 
management decision-making and in the event of adverse action by the 
agencies or third parties. We have always encouraged federal land 
ranchers to participate in agency monitoring efforts so they understand 
the data collection and analysis process. The BLM has recently asked us 
to encourage rancher monitoring on a cooperative basis with the agency. 
The New Mexico livestock industry is currently discussing ways we could 
assist the BLM in monitoring data collection.
    However, even if a significant number of ranchers participate with 
the agencies in monitoring efforts there are still hurdles to overcome. 
Rancher-collected data will be viewed as biased by grazing opponents. 
Agencies will have to review and authenticate data at a level to insure 
credibility.
    Cooperation with the agencies will have to be carried out on an 
allotment-by-allotment basis. Not all ranchers will be able to 
participate at the same level. The agencies will still have to 
administer the program and fill in the gaps where rancher data is 
insufficient. If the agencies have budgetary and personnel constraints; 
rancher resources are even more limited. Even with most optimistic 
estimates of how many ranchers will be able to undertake the task, it 
is unrealistic to expect the industry to be able to collect monitoring 
data at the level needed.
    Credible scientific data will provide basis for sound decisions and 
avoid costly conflict and legal actions that have drained so much of 
the agencies' resources over the last several years. Agency investment 
in monitoring is a cost-effective policy.
    Whatever the industry response may be to rancher monitoring, the 
agencies are still legally required to collect data. Ranchers should 
not be expected to assume the agencies' responsibility, which in 
reality as an industry will not be able to.
    The need for continued monitoring by both the BLM and Forest 
Service where there is a record of data and to begin data collection 
efforts where there the record is incomplete should be one of the 
agencies' highest priorities.

                   STANDARDS & GUIDES IMPLEMENTATION

    There are serious problems with the way the Standards for Public 
Land Health and Guidelines for Grazing Management are being implemented 
in New Mexico and across the west. The Standards and Guides require an 
assessment of ``rangeland health.'' ``Rangeland health'' is a term the 
agencies have begun to use to replace the historical ``Range 
Condition'' with mixed results. Both are value-laden terms, the term 
``health'' is less appropriate to describe rangeland. If ``health'' is 
determined to be less than optimum, the assumption is made that there 
is an illness with a cause that should be remedied. These analogies do 
not fit rangeland management.
    In New Mexico a process has begun to assess priority watersheds in 
BLM field office areas. These ``watershed assessments'' are conducted 
using a process outlined in a BLM technical reference titled 
``Interpreting Indicators of Rangeland Health.'' This methodology is 
not science-based and results in an evaluation that is highly 
subjective.
    The evaluation of a particular site is reflected as a rating that 
is nothing more than a compilation of ratings of different attributes 
of the range site. The observer ranks what he sees compared to what he 
believes should exist under a set of defined conditions. The danger is 
that this process gives a ratings score to something that is not 
measured by any quantifiable method.
    This process violates one of the basic principles of range science 
by rendering a conclusion on rangeland health or condition based on a 
one-point-in-time assessment. A basic tenet of range management 
especially on and or semi-arid rangelands is that data must be 
collected over time to be of use. And these assessments are only 
interpreted subjective opinions, not scientific data.
    Page 1 of the technical reference defines how this process is to be 
used. It is specifically NOT to be used to ``independently generate 
national or regional assessments of rangeland health.''
``The approach described in this technical reference IS designed to:

  <bullet> Be used only by knowledgeable, experienced people
  <bullet> Provide a preliminary evaluation of soil/site stability, 
        hydrologic function, and integrity of the biotic community (at 
        the ecological site level).
  <bullet> Help land managers identify areas that are potentially at 
        risk of degradation.
  <bullet> Provide early warnings of potential problems and 
        opportunities
  <bullet> Be used to communicate fundamental ecological concepts to a 
        wide variety of audiences in the field.
The approach is NOT to be used to:

  <bullet> Identify the cause(s) of resource problems.
  <bullet> Make grazing and other management decisions.
  <bullet> Monitor land or determine trend.
  <bullet> Independently generate national or regional assessments of 
        rangeland health.''

    These assessments are a comparison of what the observer believes 
should exist on the site compared to observed conditions. There are 
many factors including lack of familiarity with similar range sites and 
inexperience in range evaluation that can lead to erroneous results 
from this process. Because of the subjective nature of the evaluations, 
the results are not repeatable. Sites monitored by this method cannot 
be monitored over time to provide useful data because the next 
evaluator may not see the same conditions the same way.
    Condition of some range sites is influenced by factors that cannot 
be changed by altering grazing management. This process may not 
identify these factors. The results could be used to suggest a solution 
to a problem that in reality will provide no remedy. Example: A 
proposed solution to localized erosion could be to reduce or remove 
livestock grazing when the only management practice that will have any 
effect on the problem may be mechanical erosion control. Although 
grazing may be involved in the condition, modification of grazing 
management by itself may not be part of the solution. Example: Grazing 
management may have no effect on brush encroachment on a range site 
without some form of brush control.
    Professional and academic range scientists have told us that this 
process is not science based and the results cannot be compared to 
quantitative vegetative analysis. Decisions based on these findings 
will not lend themselves to the PRIA Section 8 process that has been 
used in New Mexico to such benefit because these decisions will not be 
based on any facts that can be scientifically confirmed or denied.
    We have not been able to find any significant benefit to the 
enhancement of range management from this process.
    Traditional vegetative monitoring is not as simple or as fast as 
the methods described above but there is no shortcut to obtaining 
useful data. While the BLM's desire to use this method to gather range 
data because it is fast, easy and considerably less work is 
understandable, it does not meet the standard of good range science. 
Monitoring quantitative vegetative attributes of range sites is still 
the only way to get usable results.
    New methods of assessing some of these attributes are under 
discussion by range scientists and academics. The agencies should 
consider how they can incorporate the latest proven scientific methods 
into their monitoring program.

                          WATERSHED MANAGEMENT

    We understand the desire to manage on a watershed basis. However 
the term ``watershed'' can have different meanings that vary widely in 
scope. There must be recognition that resource problems can be 
different from area to area even within the same allotment in a defined 
watershed. Solutions to problems have to be found and applied on an 
individual basis. A localized problem should not lead to management 
prescriptions applied to the whole watershed unless it is demonstrated 
by sound data that it is needed across the wider area.

                            NEPA COMPLIANCE

    One of the reasons there is a shortage of personnel and resources 
to accomplish monitoring is the preparation of Environmental 
Assessments (EAs) for renewal of grazing permits. The National 
Environmental Policy Act (NEPA) regulations require each federal agency 
to develop its own set of NEPA procedures (40 CFR 1507.3)
    These agency procedures identify:
    a. which types of actions normally meet the criteria for 
preparation of EIS (i.e. if the action is a ``major federal action 
significantly affecting the quality of the human environment'');
    b. which actions normally require EAs; and
    c. which actions normally do not have a significant effect on the 
quality of the human environment and therefore can be categorically 
excluded from further NEPA review procedures
    Agency personnel have become increasingly occupied with burdensome 
procedural tasks such as preparing Environmental Assessments for every 
permit renewal. If BLM and Forest Service range staff were relieved of 
some of these burdens, they would have more time to conduct rangeland 
monitoring and would then have the data to enable them to manage more 
effectively.
    A categorical exclusion from NEPA analysis should be applied to the 
regular permit renewal process. The grazing program has undergone a 
programmatic EIS and all revisions to management plans must undergo 
NEPA analysis. That should be sufficient to comply with the 
congressional intent of NEPA.

                   ENDANGERED SPECIES ACT COMPLIANCE

    Endangered Species Act (ESA) compliance is another process that 
distracts agency range staff and budget from meaningful range 
management. The single species management that occurs as result of ESA 
concerns leads to poor federal land natural resource management. BLM 
and Forest Service managers should not abdicate their role in managing 
resources under their responsibility to the Fish & Wildlife Service 
(FWS). Modification of the ESA to allow common sense solutions to be 
applied to endangered species concerns and limit legal action is 
desperately needed. Current ESA administration is not environmentally 
or fiscally responsible. There should also be legislation to require 
that ranchers or other private property owners be compensated for the 
replacement value of grazing capacity or other property taken for the 
benefit of endangered species.

                         FOREST SERVICE ISSUES

    The relationship between ranching community and the Forest Service 
in the Southwest Region is not good. This is not a new problem and we 
recognize that resolution will not be easy. We are hopeful that there 
has been recognition of the seriousness of the problem and that steps 
are being taken toward solutions. The recent instruction to FS range 
personnel to incorporate Section 8 of PRIA into their grazing allotment 
administration is a positive step. We find that the agency's use of 
punitive reductions in cattle numbers is not productive. But there is 
gratification that the Forest Service has become concerned enough with 
the plight of ranchers in the Southwest Region that a separate working 
group has been tasked to address the problem.
    How on-the-ground issues are handled at the allotment level will be 
the way success in rebuilding the relationship is judged. We will do 
our part in that effort.

                  PROPOSED CHANGES TO BLM REGULATIONS

    The New Mexico livestock industry has been extremely pleased that 
the BLM has undertaken grazing regulatory reform, although in our view 
the reform may not go far enough. Our detailed comments are submitted 
as an attachment to this testimony and here are a few of the points our 
producers keyed in on.

  <bullet> Section 4 permits
  <bullet> We requested that monitoring data should be one of the 
        required sources of information used to determine status of 
        Rangeland Health. (More appropriate term--Range Condition)
  <bullet> Inclusion of socio-economic factors in analysis of agency 
        action (Human Dimension Standard)
  <bullet> Reinstatement of District Grazing Advisory Boards
  <bullet> Moving whole Standards & Guides section from Part 4180 to 
        Part 1610 planning section of the regs.
  <bullet> Elimination of subleasing surcharge, not included in draft 
        regs. but should have been, not a grazing fee issue.
  <bullet> Interested public definition
  <bullet> Burden of proof should be on BLM
  <bullet> Monitoring data has to be used to make decisions, not just 
        rangeland health assessment

    We have covered a great deal of ground here today and I know that 
addressing even a single portion of our concerns will require 
dedication and cooperation on the part of ranchers as well as federal 
land management agencies. We in New Mexico are certainly willing to do 
what we can to that end. Thank you for your time today and your 
consideration of these comments as they impact federal legislation.
    The following attachments have been retained in subcommittee files:

        1. New Mexico Public Lands Council BLM Regulatory Reform 
        Comments, March 2004
        2. BLM / Governor of New Mexico MOU
        3. U.S. Forest Service / NMDA MOU

    Senator Craig. Mike, thank you very much.
    Now, Bob, we will hear from you.

  STATEMENT OF BOB SKINNER, ON BEHALF OF THE SHEEP AND CATTLE 
 RANCHER MEMBERS OF THE PUBLIC LANDS COUNCIL AND THE NATIONAL 
                  CATTLEMEN'S BEEF ASSOCIATION

    Mr. Skinner. Good afternoon, Mr. Chairman and other members 
of the subcommittee. My name is Bob Skinner. I am a fifth 
generation rancher from Jordan Valley, Oregon. Our ranch 
currently has a BLM permit that allows us to utilize 
approximately 5,750 animal unit months for cattle in the Vale 
District in southeast Oregon.
    I am immediate past president of the Oregon Cattlemen's 
Association and currently a National Public Lands Council 
delegate from my State of Oregon. I very much appreciate the 
opportunity to be here today to provide some of my experience 
as a public lands grazing permittee to this committee on behalf 
of grazing permittees across the West.
    Ranching out West has certainly been part of the landscape, 
the economy, and the custom and culture for well over a century 
now. More than 23,000 grazing permits, which are represented 
mostly by families that are not unlike mine, comprise the 
majority of permittees. All of the producer groups that I have 
and do represent support multiple use and sustained yield of 
the resources.
    Oregonians are rightfully proud of the many beautiful 
rivers that run through our State. Unfortunately, as things so 
often happen, management of these rivers and particularly those 
with segments that have been designated under the Wild and 
Scenic Rivers Act have recently wreaked havoc with the 
livestock industry. The intent and spirit of the Wild and 
Scenic Rivers Act has, at least we believe, been violated in 
that it now is used as a springboard to support litigation 
against our land management agencies and, of course, ultimately 
our people who are dependent upon these permits.
    The problem that has developed in Oregon is that extreme 
special interest groups have repeatedly brought suit against 
the land management agencies, in this case both BLM and Forest 
Service, because the management plans called for in this act 
may not directly address impacts such as grazing to the wild 
and scenic values. These special interest groups have mission 
statements that bluntly state that ``they are out to terminate 
grazing.''
    In Oregon alone, special interest groups have brought suit 
challenging grazing under the Wild and Scenic Rivers Act on the 
Donner und Blitzen River, the John Day, the Malheur, Murderer's 
Creek, and Owyhee Rivers. Approximately 25 ranches are 
currently fighting for the livelihoods on the Malheur and 
Murderer's Creek corridors. As the landowner representative 
that has been involved in several of these efforts, I can 
assure this committee that the anguish and frustration with the 
system is just devastating, not to mention the enormous 
financial burden that is necessary to fight for your life.
    The Oregon Cattlemen's Association, along with the Public 
Lands Council and NCBA, ask this committee to bring a better 
balance between grazing and river protection to the Wild and 
Scenic Rivers Act. The people whose lives and livelihoods are 
rooted in rural Oregon deserve attention for a remedy. There is 
no question that the law should prevent degradation of river 
values. We do not feel as though the intent of the law is to 
wreak havoc on rural families and communities in Oregon and 
throughout the West. We offer to work with the members of this 
committee to bring a better balance to the act and better carry 
out the spirit and intent of the law.
    An area of ongoing concern in the ranching industry is the 
Endangered Species Act, in particular, the potential listing of 
the sage grouse under the act. The greater sage grouse resides 
in 13 States in the West, including a significant population in 
southeast Oregon. The U.S. Fish and Wildlife Service is 
currently reviewing multiple petitions to list the sage grouse 
as threatened or endangered under the Endangered Species Act 
and is scheduled to complete a 12-month species status review 
by the beginning of 2005.
    Should Fish and Wildlife Service conclude at the end of 
this status review that listing the bird is warranted under the 
act, virtually all land use in the 13 States with designated 
habitat will be impacted. Unprecedented cooperation between 
Federal and State agencies, along with industry, is certainly 
helping compile data to prevent a listing.
    The Western Association of Fish and Wildlife Agencies 
recently completed a conservation assessment of the status of 
the grouse. The assessment concluded that the population 
numbers have been stable for the last 15 years and that a 
number of areas in the West continue to have viable 
concentrations of populations. While there is some concern 
whether the population numbers will remain viable into the 
future, it also seems clear that the bird is not threatened 
with extinction at this time.
    I have heard it said by several agency personnel back in my 
home State of Oregon that this potential listing is not about 
saving the bird, but instead about grazing. The potential 
social and economic effects of listing in the West are 
devastating. I can personally remember when sage grouse numbers 
were supposedly at their peak in the latter 1950's and 1960's, 
and I have to remind the committee that this point in time is 
also when range conditions were at an historic low point. 
Agencies and industry alike were managing our rangelands for 
maximum production with little understanding of what may happen 
to the sustainability of the resource. Those days are long 
gone. We realize now the importance of rangeland ecology to not 
only the resource, but to our livelihoods as well.
    Invasive plants are one of the issues that we need to 
address and we most certainly appreciate Senator Craig's effort 
with S. 144. We very much applaud that effort, and I think I 
have testified to your committee previously on that. We would 
like to get that in the record today. We realize that S. 144 
has passed the Senate twice and currently is being considered 
by the House Ag and Resources Committees. Any help members of 
this committee can offer to enact S. 144 during this session of 
Congress would be much appreciated. The Public Lands Council 
and National Cattlemen's Beef Association are committed to 
seeing that this bill pass and do pledge their help.
    The wild horses are a non-native species that is 
threatening our Western rangeland. In my recent conversations 
with local BLM personnel, I am very disturbed to learn that 
dwindling local resources and manpower are being diverted to 
deal with horses. We realize that the health of our rangelands 
is at stake here and understand the importance of gathering 
these horses. However, to diminish rangeland resources to 
address a single non-native could be a huge problem. We have so 
many issues facing us right now.
    In conclusion, I want to thank the members of this 
committee, particularly my Senator from Oregon, Senator Ron 
Wyden, for their important support for livestock grazing 
issues. Public Lands Council and National Cattlemen's Beef 
Association staff have assured me they are ready and anxious to 
work with all of you to help resolve many of these issues I 
have talked about today. Thank you very much.
    [The prepared statement of Mr. Skinner follows:]

 Prepared Statement of Bob Skinner, on behalf of the sheep and cattle 
     rancher members of the Public Lands Council and the National 
                      Cattlemen's Beef Association

    Good afternoon, Chairman Craig and Distinguished Members of this 
Subcommittee, my name is Bob Skinner. I am a fifth-generation rancher 
from Jordan Valley, Oregon. I run 5,750 animal unit months of cattle on 
Bureau of Land Management land in the Vail District. I also served as 
President of the Oregon Cattlemen's Association. I appreciate the 
opportunity to be here today to provide some of my experience in public 
lands grazing to the Committee on behalf of the sheep and cattle 
rancher members of the Public Lands Council and the National 
Cattlemen's Beef Association.
    The Public Lands Council (PLC) represents sheep and cattle ranchers 
in 15 western states whose livelihood and families have depended on 
federal grazing permits dating back to the beginning of last century. 
The National Cattlemen's Beef Association (NCBA) is the trade 
association of America's cattle farmers and ranchers, and the marketing 
organization for the largest segment of the nation's food and fiber 
industry. Both PLC and the NCBA strive to create a stable regulatory 
environment in which our members can thrive.
    Ranching out west has been part of the landscape, the economy, and 
the culture for approximately three centuries. About 214 of the 262 
million acres managed by BLM are classified as ``rangelands,'' as are 
76 million of the 191 million acres managed by the Forest Service. More 
than 23,000 permittees, their families, and their employees manage 
livestock to harvest the annually renewed grass resource grown on this 
land. Western ranching operations provide important additional benefits 
to the Nation by helping to preserve open space and reliable waters for 
wildlife, by serving as recharge areas for groundwater, and by 
supporting the economic infrastructure for rural communities. Our 
policy is to support the multiple-use and sustained-yield of the 
resources and services from our public lands which we firmly believe 
brings the greatest benefit to the largest number of Americans.
             wild and scenic rivers and ranching in oregon
    Oregonians are rightfully proud of the many beautiful rivers that 
course through our state. Unfortunately, as things so often happen, 
management of these rivers, and particularly those with segments that 
have been designated under the Wild River and Scenic Act, has brought 
harm to other segments in society, in this case the state's rural 
ranching communities. A better balance between ranching and river 
protection needs to be struck under the Act.
    The Wild and Scenic River Act protects existing uses along 
designated river corridors, such as grazing. However, the Act also 
requires these existing uses to protect and ``enhance'' the values for 
which the river corridors were designated under the Act. PLC and NCBA 
believes that properly managed grazing can be compatible with 
maintaining healthy river corridors. However, the ``enhance'' standard 
in the Act poses a virtually impossible hurdle for grazing to meet. In 
each instance in which environmentalists have brought suit challenging 
grazing management plan for corridors along rivers designated under the 
Act, grazing has been eliminated.
    In Oregon alone, environmentalists have brought suit challenging 
grazing under the Wild and Scenic River Act on the Donner und Blitzen, 
the John Day, the Malheuer, and the Owyhee Rivers. Approximately 25 
ranches were forced to cease operations as a result of the Malheur 
River suit alone. It is safe to assume that similar numbers were 
adversely affected by the actions brought on the other rivers. 
Elimination of these ranch operations means the elimination of a way of 
life that has been in place for generations in many cases. Without the 
ranches and their economic activity, the local communities obviously 
suffer as well, and ultimately the fabric of life in rural Oregon.
    PLC and NCBA ask this Committee to bring a better balance between 
grazing and river protection to the Wild and Scenic River Act. The 
people whose lives are rooted in rural Oregon deserve the respect and 
attention of this body. The law should prevent degradation of river 
values. It need not bring harm to rural families and communities in 
Oregon and throughout the west. We would be pleased to work with the 
members of this committee to bring a better balance to the Act.

                 ENDANGERED SPECIES ACT AND SAGE GROUSE

    An area of ongoing concern in the ranching industry is the 
Endangered Species Act, and in particular the potential listing of the 
sage grouse under the Act. The Greater sage grouse resides in 13 states 
in the west, including a significant population in southeast Oregon. 
The U.S. Fish and Wildlife Service (USFWS) is currently reviewing 
multiple petitions to list the sage grouse as threatened or endangered 
under the Endangered Species Act, and is scheduled to complete a 12-
month species status review by the beginning of 2005.
    Should the FWS conclude at the end of the status review that 
listing the bird is warranted under the Act, virtually all land use in 
the 13 states with habitat will be impacted. PLC and NCBA recognize the 
obligation of the federal government to avoid jeopardy and conserve 
wildlife under the ESA. For this reason, our members have been active 
participants in an unprecedented locally-led single-species 
conservation efforts in all of the affected states. The BLM, Forest 
Service, and NRCS are collecting and cataloguing information about 
conservation practices that have been implemented using federal dollars 
and the Western Governor's Association is collecting the same 
information for work that has been conducted on private lands. All 
three agencies have also given special priority to funding sage grouse 
conservation projects.
    The Western Association of Fish and Wildlife Agencies recently 
completed a conservation assessment of the status of the sage grouse. 
The assessment concluded that the population numbers have been stable 
for the last 15 years and that a number of areas in the west continue 
to have viable concentrations of populations. While there is some 
concern whether the population numbers will remain viable into the 
future, it also seems clear that the bird is not in threatened with 
extinction at this time.
    In the face of these conservation efforts and findings about the 
population, many members of the public will become discouraged if FWS 
exercises its regulatory authority to list the bird and usurp the 
conservation efforts of states and local working groups which consist 
of local stakeholders. Local conservation efforts would be at risk for 
fading away. Industry members fear that a listing would create a new 
issue for litigation every time a new permit is issued. Our members 
also obviously fear that a decision to list could lead the FWS to 
impose regulatory conditions that could drive many ranchers out of 
business.
    We are further concerned that managing a bird with a west-wide 
range would be more of a workload than the FWS is prepared to handle. 
In this situation, the agency would understandably be put in a position 
when it would be forced to make quick, general management decisions 
that could ignore actual conditions on the ground. PLC and NCBA firmly 
believes that the best hope for conservation in this country is to 
engage as many local elements of society as possible. A FWS decision to 
list the bird is antithetical to this vision.
    The personal experience of one of our members in Nevada gives us 
hope that an overall positive solution can be found for managing sage 
grouse populations. This rancher has grazed the same allotment for 27 
years. When sage grouse population numbers were first called into 
question a few years ago, 5,000 birds were identified on the 
allotments. Since that time, resource specialists have come to believe 
there are more than 13,000 birds on the allotment. We believe that 
range-wide there is a sustainable number of sage grouse that can 
coexist successfully with livestock grazing.

                         WILD HORSES AND BURROS

    The Wild Horse and Burro program within the Bureau of Land 
Management needs congressional attention. Horse populations are 
exploding and the agency lacks the resources and authority to deal with 
them.
    Wild horses are not native to the west. They first appeared on the 
range after being abandoned or having escaped from early ranchers. The 
numbers of these horses grew until today there are approximately 36,000 
horses on the open range, and 14,000 in long-term care. The goal of the 
program is to manage horse numbers at the appropriate management level 
(AML). The BLM has rarely if ever met this goal in the 30 year life of 
the program.
    Overpopulation of the horses is a problem for wildlife, vegetation, 
and of course, livestock grazing. The resource damage that occurs is 
devastating and takes many years to recover. The horses also cause 
damage to water holes, springs and riparian areas. Most big game 
numbers are controlled to a degree by predators and hunting. Livestock 
is managed in a systematic manner and move according to season and 
forage availability. Like all farm or ranch animals and wildlife, we 
believe horses too should be managed to keep them at or below the 
established AML.
    Just this past week at a public lands meeting of the Nevada 
Cattlemen's Association, a permittee from Elko County Nevada came to us 
with his story. He has a winter permit to run cows and last fall as he 
was preparing to turn out, he discovered that the horses had totally 
used up the forage beyond the 60% utilization level that he is allowed 
to take. On the other hand, he would have been required to move his 
livestock when the 60% utilization occurred. The AML for that allotment 
is 181 head of horses, while the actual count last fall was 589 head. 
This is just one example of many across the western ranges. We have 
been contacted by permittees from Oregon, Idaho, and Wyoming because of 
their frustration with unmanaged wild horse populations and the adverse 
impacts these populations have had on their ranching operations.
    PLC and NCBA would love to see the horse populations better managed 
through more effective adoption programs. To date, it appears that 
adoptions will not be able significant reduce the numbers of horses on 
the range. While the percentage of horses adopted in recent years has 
increased, horse adoption rates overall have declined over the years. 
All the same, any effort to increase adoptions by making greater use of 
third parties to perform the work may be an important step in the right 
direction. Incentives could also be identified to encourage non-profit 
foundations to become more involved in with facilitating horse 
adoption.
    The other existing solution for removing horses from the range is 
long-term care facilities, which is also accounts for the disposition 
of most horses removed from the range. Currently, there are 
approximately 14,000 horses and burros in long-term holding facilities, 
more than one-third of the entire wild horse and burro population. 
Horses can enter long-term facilities at a young age and live to 22 
years and older. Long-term care costs taxpayers $1.25 per horse, per 
day, which quickly becomes a large financial burden.
    Wild horses are not native to the west. They first appeared on the 
range after being abandoned or having escaped from early ranchers. 
Horse in long-term facilities, in particular, are domestic animals. 
They are not running free on the open range and the vast majority of 
them will never do so again. Many of the horses are older and have been 
put up unsuccessfully for adoption several times. The likelihood is 
slim that horses rejected for adoption more than once will ever be 
adopted.
    In short, the Horse and Burro program is crying for congressional 
attention. We would be pleased to work with the Committee on solutions.

                             NOXIOUS WEEDS

    Invasives are one of those issues that do not jump out to grab the 
headlines. All the same, weeds are slowly taking over the landscape of 
many prime grazing areas and other natural areas and have the potential 
to take over many more. While a number of government programs exist 
that help the edges of the problem, no single program exists that 
focuses the cooperative energies necessary to succeed in defeating the 
onslaught of weeds.
    That is, no program before Senator Craig introduced his bill, S. 
144. This important proposal relies on local cooperative weed 
management entities to identify and solve their weed problems on public 
and private lands. Local action is the proper focus for an issue that 
in large degree is a local land use control issue. S. 144 leaves it to 
the states to decide which of the local activities merit funding and 
minimizes the control that federal officials have over local land use.
    This important bill has passed the Senate twice. Currently it is 
being considered by the House Agriculture and Resources Committees. Any 
help members of this committee can offer to enact S. 144 this session 
of Congress would be very appreciated by PLC and NCBA. We thank Senator 
Craig and the members of this committee for their work on this 
important issue.

                               CONCLUSION

    I want to thank the members of this committee, and particularly 
Senator Wyden, for their important support for livestock grazing on 
public lands. PLC and NCBA staff are anxious to work with you to solve 
the many problems facing our members.

    Senator Craig. Bob, thank you very much.
    We have been joined by my colleague, Craig Thomas of the 
great State of Wyoming. Craig, would you wish to make any 
opening comment? And I will let you start the questioning.
    Senator Thomas. Thank you, Mr. Chairman.
    The opening comment, of course, is that we are all very 
concerned about the grazing, about the management of public 
lands for multiple use. As times change, they become more 
difficult. So I thank you very much for being here and talking 
somewhat about the issues that are there.
    Let me go back just a little and ask you to sort of put a 
priority on it. What do you think is the major problem, and 
what would you do about it?
    Mr. Groseta. The grazing permit renewal is a problem that 
needs to be addressed. We have been on the band aid approach 
for several years I think as we all recognize, and we do 
appreciate what has transpired. Now we have legislation for 5 
years, 4 years remaining. As I had shared with you in my 
presentation, in order to remedy that, I think that we need to 
be much more aggressive in NEPA reform. We really need to look 
at ESA and look at that hard. There has been a lot of talk 
about it, but no one seems to be willing to step up to the 
plate and to really address that issue and to resolve that. I 
really think that is the source of the problem that we really 
need to look at.
    Senator Thomas. So the environmental analysis is too 
complicated and so on.
    Mr. Casabonne.
    Mr. Casabonne. I would agree with that. The NEPA analysis 
that has to be done on permit renewal, of course, puts us in 
jeopardy by not being able to get the permits renewed in a 
timely manner, and if it were not for the legislation that kind 
of saves us from that, we would be gone.
    And then the other thing that that does is it takes the 
range personnel away from doing what we think should be their 
main job, and that would be monitoring and collecting the data 
that we think will show them how the land needs to be managed 
and will be information for us. It would also demonstrate to 
the public our record of stewardship, which we believe is 
important. We are not afraid of the monitoring data. We think 
there should be more of it collected, not less.
    Senator Thomas. What is the answer to being able to do this 
more quickly or in a more timely way?
    Mr. Casabonne. If there were the categorical exclusion for 
the NEPA analysis, the environmental assessments on renewal of 
every term permit as permit renewal was more of simple process, 
before you had to do the NEPA analysis, and then the range 
folks, instead of sitting in the office having to write NEPA 
documents all the time, could be out on your place running 
transects on the range study sites, and they would collect the 
monitoring data.
    Senator Thomas. Mr. Skinner, what is your priority? What do 
you think is the most important problem and how do you fix it?
    Mr. Skinner. In our area that thing that pops to my mind, 
Senator, is our litigation issues. It hamstrings the agencies. 
It is diverting manpower and money, both from the agencies and 
from the private sector. It takes personnel out of the field 
which is what my colleagues have been talking about. To address 
these constant assaults in the courts has just totally changed 
the management scheme of the agencies. It has lowered the 
morale in the agencies. It is just a real, real problem in the 
State where I am.
    Senator Thomas. These are generally suits with respect to 
endangered species. They are not grazing particularly, but it 
has an impact on the grazing.
    Mr. Skinner. Oh, yes.
    Senator Thomas. They do not sue about the grazing permit 
itself often, do they?
    Mr. Skinner. Well, indirectly. It is like they have told me 
in the past. They do not sue ranchers, but they do sue 
ranchers. They do not file suit against the ranchers. They file 
against the Forest Service or the BLM in our case, and of 
course, the ranchers are the permittees. So they are the ones 
that suffer the ultimate consequence.
    Senator Thomas. No. I understand.
    Mr. Skinner. Like in the Wild and Scenic Rivers Act case, 
the law is clear. It states that grazing shall continue, but it 
says that they have to write the management plan. It is a long 
story.
    Senator Thomas. There is one other area, before I run out 
of time, that we are particularly involved with, and you 
mentioned it, and that is wild horses. You mentioned the 
gathering process which we seem to be able to do rather 
efficiently and quite often. The problem is once they are 
gathered, what do you do with them? How would you handle that 
issue?
    Mr. Skinner. That is a big, bib problem. We need to address 
that, and I think in talking to the BLM local office, $1.25 
approximately per head. I cannot verify these numbers. They 
told me that currently there are around 22,000 of them in 
storage, whatever you call it. That is just an absolute, 
enormous burden on the taxpayer.
    Senator Thomas. No question.
    Mr. Skinner. I do not know what the answer is.
    Senator Thomas. We have talked to them about increasing the 
eligible adoption numbers that a person could, if they choose. 
But you are right.
    I guess I am about out of time. But I have a bill in that 
says for endangered species, there has to be additional 
scientific information. It can be listed pretty easily now, and 
when they are listed, there ought to be a delisting process 
along with it. I think there have been almost 2,000 listed and 
only 20 delisted.
    What would you think of that? Do you think there ought to 
be more science to go into the listing process?
    Mr. Groseta. Yes, and it needs to be science-based, fact-
based.
    Senator Thomas. Thank you, Mr. Chairman.
    Senator Craig. Craig, thank you very much.
    Andy, the restocking plan for the Tonto National Forest and 
the effort that has been made in completing that is quite 
impressive. What do you attribute your success in reaching an 
agreement to?
    Mr. Groseta. Well, collectively the cattlemen got engaged, 
along with the agency folks, and I think collectively all of us 
realized that we needed to work together. We are in this 
together. It was a situation that was created and precipitated 
to a point where with the drought conditions basically the 
Tonto National Forest was zeroed out. Last summer they had less 
than 1,000 head out of a total of 60,000 permitted numbers on 
that forest.
    But through the efforts of the Gila County Cattle Growers, 
the local Cattlemen's Association, the Arizona Cattle Growers, 
the PLC, NCBA, those people came back here to D.C., met with 
the staff, met with the regional people, and we came up with 
this restocking agreement. It was an agreement that we all 
collectively worked on and agreed to, and hopefully this is a 
model or a template that we can use in other places in the West 
because time will tell whether or not this is really going to 
work. We are looking right now at the implementation. We just 
got the agreement signed the first week of this month. All the 
groups signed a cover letter. That cover letter is going out 
now, I am told, as we speak, to all of the grazing permittees 
on the Tonto National Forest.
    The cattlemen have the opportunity--and this is one thing 
that is unique and was different than the past--of pulling 
together range resource teams, technical teams. They have the 
ability to use University of Arizona extension agents, private 
range consultants, or what we call third party people to bring 
them to the table. The Forest Service now has acknowledged they 
will use input from those folks. So it is just another way to 
bring more information to the table.
    And the recommendation from that group will be to the 
forest line officer and hopefully to get these folks back on 
the land. Some of them have been off the land 2, 3, and 4 
years. They are totally out of business, and it is very 
difficult now to get back engaged in business.
    But we are excited, and I tip my hat to the Forest Service 
and also to the cattle growers. It was a collective effort to 
pull this off. As I said, the jury is still out, so to speak, 
but we are very excited about it. Hopefully it will be a 
template that we can use in other places in the West.
    Senator Craig. Is there flexibility in the plan to address 
any changes in conditions?
    Mr. Groseta. Yes. Each rancher has the ability of putting 
together a team to bring in his own people to assess the 
conditions and its stock and monitoring is a critical component 
of this. They will go out and make an assessment, and then they 
will make a recommendation to the forest line officer. But we 
have flexibility where it is just not the agency making the 
decision. Now there is input from the ranching side. The 
rancher has the ability to go out and get a third party 
consultant, an outside consultant, and with them, they can make 
a recommendation to the line officer, this is what we want to 
do. Then they will go out and monitor. And monitoring is the 
name of the game. You have heard it several times this 
afternoon.
    In Arizona, we are very excited. The Arizona Cattle Growers 
has an arrangement with the NRCS. We have a person on board to 
work with cattlemen. This Tonto thing, this person will be 
engaged with the cattlemen on the Tonto. But actual dollars, 
time, and energy will be spent with the grazing permittee. And 
the Forest Service will recognize the facts and data collected 
by these third party vendors. So, yes, we are very excited 
about it. We have really nowhere to go but up in that 
particular situation.
    As I said, I commend the agency and the cattle growers for 
putting this together. I think it does a lot of things. It is 
something that we need to try and it is positive.
    Senator Craig. I appreciate that testimony. It is nice to 
hear when parties can come together collectively, something can 
come of it.
    And you are right. Monitoring is the name of the game. 
Mike, I want to switch to you because in your comments and 
testimony you talked a good deal about that. And it is 
important, and the great tragedy today with the resource we 
have within our agencies is that many of them spend more time 
in shop, if you will, doing exactly what you were talking 
about, than out on the ground.
    But when they go out on the ground, I have called it range 
management by yardstick. They take a ruler along and they 
measure the stubble. Therefore, that is the whole trend line, 
if you will, of the condition of the range. We are talking 
about standards and guidelines and all of that that may or may 
not work. I would like to think that good minds and 
collaborative processes understand range conditions, also 
historic knowledge not a yardstick.
    How would you propose correcting some of the problems we 
have got today as it relates to monitoring?
    Mr. Casabonne. Senator Craig, I agree with you 100 percent. 
Some of the things that we have done in New Mexico with the BLM 
that have worked for a long time, similarly to what Andy is 
talking about that they have worked out with the Forest Service 
in their restocking plan on the Tonto, we always talk about 
section 8 of PRIA. Section 8 of PRIA calls for careful and 
considered consultation, cooperation, and coordination with not 
only the permittees but with State agencies that are involved 
in land management.
    Years ago the State of New Mexico, through the Governor's 
office, negotiated an MOU with the BLM to allow the New Mexico 
Department of Agriculture of the State, which has been 
represented by the Department of Agriculture, to cooperate with 
the BLM. Through an interdisciplinary team of range scientists, 
riparian specialists, wildlife specialists, and ag economists 
to analyze the socioeconomic impacts, they worked with the BLM 
and developed a monitoring protocol. It is not just a yardstick 
method, as you talked about, but it is a truly credible range 
science system of monitoring.
    And that is what has been done in some of the BLM field 
offices in New Mexico. It has not been done all over the State. 
It has been done to a greater or lesser degree in some places. 
I have been lucky enough on the allotments that I have anything 
to do with, we have over 20 years of monitoring data, and they 
were on a schedule to monitor every 5 years. Now they have 
fallen behind on that schedule because of these EA's, primarily 
the environmental assessments that have to be done on permit 
renewal. That keeps the staff tied up in the office, and they 
do not have a chance to get out and do this kind of range 
monitoring. We think the methods are there. People know how to 
do that kind of stuff. They just need to have the priorities 
changed so they are not working on stuff in the office all the 
time and they are out doing these kinds of things.
    I would add that in the last revision to the grazing manual 
for the Forest Service, I think that I have seen a copy of that 
that said they are supposed to consider section 8 of PRIA. And 
I think that by consulting and cooperating, coordinating with 
the permittees and then the ability to involve the academic 
community or range consultants that have credibility that can 
institute monitoring protocols, that is a really beneficial 
thing, if the Forest Service will implement that to the degree 
that the BLM has in New Mexico.
    And we also have an MOU that is signed between the New 
Mexico Department of Agriculture and the Forest Service, which 
they have never really acknowledged and have never really used, 
but I think that can be a great process to help us and get more 
monitoring work done, which I think will benefit us all.
    It will also help protect us from these frivolous lawsuits 
that come along because if there is credible scientific data 
that will stand up in court, it is harder for groups to sue on 
things when they obviously do not have a case. And even if they 
do sue, the cases do not go very far. So it should be a cost 
effective thing for the agency to have a good, effective 
monitoring program in place so that they can be able to defend 
the actions that we know need to be taken.
    Senator Craig. Well, I totally concur with you. We will 
look at their budgets again, but you are right. There is a 
whole other set of policy out there that drives them in the 
directions that you have all spoken to, and that is part of the 
frustration I think all of us are attempting to deal with at 
this moment.
    Bob, you are right about the Wild and Scenic Rivers Act and 
what is says as it relates to grazing. Now, I know Oregon is 
known for a lot of things. Is there something unique in the 
water out there that would cause parties to sue using Wild and 
Scenic Rivers to get cattle off the land? What causes that? 
That does not seem to be the tool in other areas of the 
country.
    Mr. Skinner. Well, we have got a very liberal district 
court, and then we have got a very liberal Ninth Circuit that 
the district court has to answer to. There is no question that 
Oregon is the worst State for litigation in the Nation. There 
is no question. Every time I go to a public meeting, the rest 
of the people like these guys all wait to see what is going to 
happen to us because we are just under siege. There are some 
other States that are also under siege.
    But this is very carefully orchestrated. Make no mistake 
about it. We have a very liberal district court, and then of 
course, as you well know, that court has to fall back on the 
Ninth Circuit, which has not been all that friendly. That is 
why they are using us. That is why Oregon is in the fire line.
    Senator Craig. Well, I appreciate your frustration. We all 
recognize and go back to the point that Mike was making about 
monitoring and building a scientific base to make the 
arguments. If you cannot have that informational flow, you 
cannot make the arguments that justify a livestock presence 
there under the conditions so prescribed. It becomes 
increasingly difficult to sustain these lawsuits.
    Of course, you are right. It is orchestrated. There is no 
question there are organizations out there that have a very 
clear intent as it relates to getting livestock off the public 
lands. Hopefully, we have shifted some of that bias in the last 
few years. Many of us have worked mightily on it with the 
Department of the Interior and the Department of Agriculture to 
bring that pendulum back to center ground and to cause our 
agencies to work hard at bringing balance. The public policy is 
still there and the record is still there, and that in part is 
our difficulty.
    We have also struggled to attempt to bring some redirection 
to the Endangered Species Act. That has not occurred. It is not 
going to be an easy task to do. If we could get change to the 
President's desk, he has pledged to sign it. I think he, like 
all of us, have seen its misuse as a law, but because it has 
become holy grail or at least is caused to be represented in 
that way, it is a very difficult law to make some reasonable 
adjustment in until it just runs amok. It has run amok in your 
State. It is running amok in our State right now with wolves, 
and it has happened in other States across the country.
    Now, of course, you have mentioned grouse and what we are 
doing there. We are going to be asking BLM in a few moments 
about that issue. That is tremendously important and we are 
working in a cooperative right now to see if we cannot get out 
in front of it with science to make the right decisions there.
    Thank you also for mentioning S. 144 and the cooperation 
with the National Cattlemen, along with Nature Conservancy and 
others. When you approach these things in the right way, you 
can build very valuable coalitions because certainly invasive 
species of weeds or plant life are damaging to the western 
ranges, and we have seen it in spades across my State and 
others. We are working hard to get that done.
    Gentlemen, thank you very much for your patience, first of 
all, and your presence here and your testimony and your 
involvement in these issues. We know that as active livestock 
producers, you take a lot of time away from your businesses to 
participate in this public process, and that is appreciated. We 
hope you will continue. We will try to make it a more 
productive experience. Thank you very much.
    Mr. Groseta. Thank you.
    Mr. Casabonne. Thank you.
    Mr. Skinner. Thank you.
    Senator Craig. Now let me invite to the table Jim Hughes, 
Deputy Director of the Bureau of Land Management, Department of 
the Interior, and Tom Thompson, Deputy Chief, National Forest 
System, U.S. Department of Agriculture.
    Again, gentlemen, and those who accompany you, thank you 
for your patience and your staying power here today. I guess 
the shortness of our presence here today will be in direct 
relationship to your testimony. But we hope that it will be 
complete and comprehensive, and of course, your full statements 
are a part of the record. Jim, we will start with you.

   STATEMENT OF JIM HUGHES, DEPUTY DIRECTOR, BUREAU OF LAND 
            MANAGEMENT, DEPARTMENT OF THE INTERIOR, 
        ACCOMPANIED BY ED SHEPARD, ASSISTANT DIRECTOR, 
                RENEWABLE RESOURCES AND PLANNING

    Mr. Hughes. Thank you, Mr. Chairman. Thank you for inviting 
us to testify about the Bureau of Land Management rangelands.
    I am accompanied by Ed Shepard, BLM's Assistant Director 
for Renewable Resources and Planning.
    The administration recognizes that ranching is an important 
component of the economies of many Western rural communities 
and it is the core of their history, their social fabric, and 
cultural identity. The BLM is committed to collaborating with 
those who work on the public lands as we strive for 
economically productive and environmentally healthy rangelands.
    The BLM manages grazing on more than 160 million acres of 
public lands in the West. In a typical year, the BLM has 1,500 
permits up for renewal. The BLM experienced a spike in grazing 
permit renewals in 1999. Over 5,000 permits were due for 
renewal in 1999, and 2,200 permits in the year 2000. 
Additionally, the BLM was required to improve environmental 
documentation for processing grazing permit and lease renewals. 
The increased workload made it clear that BLM would not meet 
the required deadlines for permit renewals. As Chairman 
Domenici stated, Congress gave us the language to protect the 
ranchers so we could try and work out a schedule to renew all 
these permits with the appropriate environmental analysis.
    Of the 12,041 grazing permits that expired between fiscal 
year 1999 and fiscal year 2003, 10,234 have been fully 
processed. We believe at the BLM that the remaining backlog 
should be completed by the close of 2009, at which time the BLM 
plans to fully process all permits in the year they expire.
    A quick note on our grazing regulations: In the spring of 
2003, we initiated a review of the regulations governing 
grazing management on public lands. The Secretary of the 
Interior announced the proposed rule in December 2003. The 
public comment period on the proposed rule closed in early 
March, and at this time we are in the process of reviewing and 
analyzing the public comments and drafting a final rule and 
EIS. The final EIS is scheduled to be completed and released in 
September of this year. We anticipate publishing the final rule 
in October, with an effective date of December of this year.
    The proposed rule recognizes that public land grazing has 
its roots in the settlement of the West. Communities and 
families still rely on a combination of public and private 
lands to sustain the rural landscape and open spaces. The 
changes outlined in the proposed rule are intended to be 
another important step forward to improve grazing, drawing upon 
the lessons learned since the previous revisions more than 8 
years ago.
    Three major objectives of the proposed rule were to improve 
working relations with permittees and lessees, protect the 
health of the rangelands, and increase administrative 
effectiveness and efficiency.
    Regarding wild horses, the goal of BLM's wild horse and 
burro program is to achieve and maintain healthy, viable wild 
horse and burro populations on the public lands that are in 
balance with other uses and the productive capability of their 
habitat. We need to achieve appropriate management levels to 
restore this balance. Current numbers of free-roaming wild 
horses and burros exceed appropriate management levels.
    The BLM's strategy calls for removing enough wild horses 
and burros from the public lands now to achieve appropriate 
management levels. Removing excess animals will benefit the 
health of the herds, reduce the number of emergency gathers of 
animals during drought, improve habitat conditions for all 
public land resource users, and help to achieve healthy 
rangelands.
    The BLM recently received approval to reprogram $7.6 
million from other programs to the wild horse and burro program 
in fiscal year 2004. We do understand the budget constraints 
facing the Congress, and we think this money will allow the BLM 
to move a significant number of animals from the rangelands 
into the adoption program or into long-term holding facilities.
    In regard to sage grouse, today the BLM manages about half 
of the remaining habitat for sage grouse. Although these birds 
range across 11 Western States and 2 provinces in Canada, their 
populations have decreased significantly over the past 4 
decades as nearly one-half of their sagebrush nesting grounds 
were lost, degraded, or fragmented.
    The BLM is currently participating in cooperative 
conservation efforts that are being led by State wildlife 
agencies throughout the range of the sage grouse.
    Later this summer, the BLM expects to issue its National 
Sage Grouse Habitat Conservation Strategy which will set out a 
framework for conservation of sage grouse and associated 
sagebrush habitats on lands administered by the BLM. The BLM's 
national strategy has been designed to deliver a substantial 
Federal contribution to cooperative conservation efforts that 
are being led by State wildlife agencies throughout the range 
of the sage grouse in the West.
    Finally, the BLM is expending over $14 million in fiscal 
year 2004 and we have requested an additional $3.2 million for 
fiscal year 2005 for restoration and conservation of sagebrush 
habitat. By taking proactive steps in sage grouse habitat 
conservation, we are fostering collaborative and voluntary 
measures in order to maintain flexibility in land use options 
and management.
    All of these BLM efforts recognize the important role 
played by ranchers in protecting the land and preserving open 
spaces in the West. The economic and social benefits of 
ranching in this country are many, and the BLM strives to 
preserve that important part of our heritage.
    Thank you for this opportunity to testify. We would be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Hughes follows:]

   Prepared Statement of Jim Hughes, Deputy Director, Bureau of Land 
                 Management, Department of the Interior

    Thank you for inviting me to testify regarding the management of 
Bureau of Land Management (BLM) rangelands. The Administration 
recognizes that ranching is an important component of the economies of 
many Western rural communities, and it is the core of their history, 
social fabric, and cultural identity. Ranching can also play an 
important role in preserving open space in the fast-growing West. The 
BLM is committed to collaborating with those who work on the public 
lands as we strive for economically-productive and environmentally-
healthy rangelands.
    As the Committee has requested, I will discuss grazing permit 
renewals, our pending grazing rulemaking, wild horse and burro issues 
as they affect the rangelands, and our efforts to conserve and enhance 
sage-grouse habitat while allowing productive uses of the public lands.

                        GRAZING PERMIT RENEWALS

    The BLM manages grazing on more than 160 million acres of public 
land in the West. We administer over 18,000 grazing permits and leases, 
and, in 2003, six million AUMs (animal unit months) were used.
    By regulation, grazing leases and permits are normally issued for 
10-year periods. In a typical year the BLM has 1,500 permits up for 
renewal. As we have discussed before with this Committee, the BLM 
experienced a spike in grazing permit renewals in 1999. Over 5,000 
permits were due for renewal in 1999, and 2,200 permits in 2000. 
Additionally, the BLM was required to improve environmental 
documentation for processing grazing permit and lease renewals. The 
increased workload made it clear that the BLM would not meet the 
required deadlines for permit renewals.
    Congress took action to ensure that grazing permittees and lessees 
could continue to graze if the BLM was unable to complete the 
environmental analysis mandated by the National Environmental Policy 
Act (NEPA). Since 1999, a provision has been included each year in the 
Interior Appropriations bill that gives the BLM the authority to extend 
grazing permits and leases under their same terms and conditions until 
completion of NEPA compliance, Endangered Species Act (ESA) 
consultation, and other legal requirements. I would like to share with 
you what BLM is doing not only to address the permit-renewal workload, 
but also to avoid recurrence of this problem.
    As the BLM began working its way through the permit workload spike, 
it became increasingly clear that simply doing ``business as usual'' 
was not going to provide a long-term solution to the problem. 
Therefore, the Bureau has placed an emphasis on renewing expiring 
grazing permits within priority watersheds with significant resource-
use conflicts or issues. Rather than rigidly adhering to a 
predetermined schedule of renewals, where possible, we are grouping 
permits with common impacts, watersheds and land health standards. Not 
only does this provide a more even redistribution of future permit 
renewals over a full 10-year cycle, but it also affords more timely 
completion of consultation with the U.S. Fish and Wildlife Service and/
or the NOAA Fisheries. In addition, these measures will facilitate an 
effective review of land health standards on a watershed basis, allow 
for improved cumulative impact analysis, and focus restoration 
resources. In the long term, this will improve and streamline our 
processing of permit renewals.
    Of the 12,041 grazing permits that expired between fiscal year 1999 
and fiscal year 2003, 10,234 have been fully processed. The remaining 
1,807 are planned for completion by the close of 2009, at which time 
the BLM plans to fully process all permits in the year they expire.
    Our experience has shown that most NEPA documents needed for 
grazing permit renewals have been at the Environmental Assessment (EA) 
level, with very few requiring full Environmental Impact Statements 
(EISs). Terms and conditions have been substantially unchanged from the 
expired permit for the overwhelming majority of fully processed 
permits.
    The BLM is strongly committed to meeting the permit completion 
goals I have outlined. The BLM will continue to closely monitor the 
status of grazing permit and lease renewals and, as appropriate, will 
make adjustments to meet our goals. However, in any given year, other 
factors, such as challenges to decisions through appeals and 
litigation, or a particularly difficult fire season (which may involve 
temporarily diverting some BLM personnel) may test our ability to meet 
our planned timeframes. However, we do not believe this will impede our 
ability to complete this process by 2009, and we remain committed to 
meeting our goals.

                          GRAZING REGULATIONS

    In order to improve grazing management and continue to promote 
ranching on public lands in the rural West, the BLM, in the Spring of 
2003, initiated a review of the regulations governing grazing 
management on public lands. We held four public meetings and received 
more than 8,300 comment letters on our Advanced Notice of Proposed 
Rulemaking. Based on the input received from the public as well as our 
own experiences with the existing regulations, the Secretary of the 
Interior announced the proposed rule in December 2003. A draft 
environmental impact statement (DESI) on the proposed rule released for 
public review in January 2004.
    The public comment period on the proposed rule and DESI closed in 
early March. We received over 15,000 comments on that proposal. In 
addition, five public meetings were held across the West, as well as 
one here in Washington to take comments on the proposed changes. At 
this time, we are in the process of reviewing and analyzing the public 
comments and drafting a final rule and EIS. A final EIS is scheduled to 
be completed and released in September of this year. We anticipate 
publishing the final rule in October with an effective date of December 
of this year.
    Last December's proposed rule recognizes that public-land grazing 
has its roots in the settlement of the West. Communities and families 
still rely on a combination of public and private lands to sustain the 
rural landscapes and open spaces. Many adjustments have been made in 
livestock grazing management and practices to improve the health of the 
public rangelands since the passage of the 1934 Taylor Grazing Act, and 
the 1976 Federal Land Policy and Management Act. The changes outlined 
in the proposed rule are intended to be another important step forward 
to improve grazing upon the lessons learned since the previous 
revisions more than eight years ago.
    The three major objectives of the proposed rule are to: improve 
working relations with permittees and lessees, protect the health of 
the rangelands, and increase administrative effectiveness and 
efficiency.
    Significant provisions of the proposed rule include requirements 
that the BLM analyze and document the relevant social, economic and 
cultural effects of proposed grazing changes; a phase-in of changes in 
grazing use of more than 10%; and a provision for joint ownership of 
range improvements in some cases. Additionally, the proposed regulation 
removes the 3-consecutive-year limit on voluntary temporary non-use and 
requires BLM to use monitoring data in making certain determinations of 
land health. Furthermore, changes include expanding the definition of 
``grazing preference,'' and making administrative revisions on stays 
pending certain appeals.

                       WILD HORSE & BURRO PROGRAM

    A priority of the Administration is to provide for sustainable 
multiple-use of the public lands. Among the authorized multiple uses 
that affect the rangelands is the BLM's mandate to implement the Wild 
Free-Roaming Horse and Burro Act. Our most recent estimate in February 
of this year indicated that the herd population totaled approximately 
36,000 wild horses and burros on the public lands and another 19,000 
animals in holding facilities. (Since February, spring births have 
added approximately 7,500 additional animals.)
    The goal of BLM's Wild Horse and Burro program is to achieve and 
maintain healthy, viable wild horse and burro populations on the public 
lands that are in balance with other uses and the productive capacity 
of their habitat. Achieving appropriate management levels of wild 
horses and burros is necessary in order to restore and maintain 
thriving natural ecological balance and maintain balance with other 
uses of the lands. Current numbers of free roaming wild horses and 
burros exceed appropriate management levels. If BLM were managing at 
the appropriate management level, approximately 26,000 animals would be 
on the open range at any one time. Wild horse and burro populations 
increase by approximately 20% per year, so populations will double 
approximately every five years without active management.
    The BLM's strategy for managing wild horse and burro populations 
calls for removing enough wild horses and burros from the public lands 
now to achieve appropriate management levels, and implementing more 
efficient management for adoptions and long-term holding. Removing 
excess animals will benefit the health of the herds, reduce the number 
of emergency gathers of animals during droughts, improve habitat 
conditions for all public land resource users, and help to achieve 
healthy rangelands.
    Failure to act aggressively to achieve appropriate management 
levels will cause further harm to rangeland health by overgrazing 
forage resources. This in turn adversely impacts other public land 
resources such as wildlife habitat and populations. With wild horse and 
burro populations exceeding appropriate management levels, field 
managers are forced to consider reducing livestock below permitted use 
in an attempt to maintain rangeland conditions. This is a situation 
that the BLM is actively seeking to avoid.
    The BLM recently received approval to reprogram $7.6 million from 
other programs to the Wild Horse and Burro program for FY 2004. The BLM 
understands the budget constraints facing the Congress, and while the 
reprogramming authority doesn't fully meet our request, the approved 
reprogramming level of $7.6 million will allow the BLM to move a 
significant number of animals from the rangelands into the adoption 
program or into long-term holding facilities. The BLM is currently 
calculating the exact number of removals that the agency will be able 
to conduct with the reprogrammed funds. The BLM also is analyzing other 
impacts of the approved reprogramming authority, including the 
timeframe for achievement of appropriate management levels.

                              SAGE-GROUSE

    Today, the BLM manages about half of the remaining habitat for 
sage-grouse. Once seen in great numbers and a popular game bird with 
hunters, the sage-grouse is an icon of the western sagebrush landscape. 
Although these birds range across 11 western states and two provinces 
in Canada, their populations have decreased significantly over the past 
four decades as nearly one-half of their sagebrush nesting grounds were 
lost, degraded, or fragmented.
    Seven petitions to protect sage-grouse under the Endangered Species 
Act were filed with the U.S. Fish and Wildlife Service (FWS) between 
1999 and March 2003 because of concerns over sage-grouse population 
declines. However, even before the petitions were filed, the BLM, in 
response to concerns about the bird population, began identifying 
actions that could be taken to stem declines on BLM-managed public 
lands.
    The BLM is currently participating in cooperative conservation 
efforts that are being led by state wildlife agencies throughout the 
range of the sage-grouse. With increasing numbers of at-risk species in 
the West, the BLM recognized the need to work with other Federal 
agencies and state wildlife agencies to more effectively coordinate 
conservation efforts in sagebrush habitat. Beginning in 2000, BLM began 
working with the FWS, the Forest Service (FS), and the Western 
Association of Fish and Wildlife Agencies (WAFWA) under a Memorandum of 
Understanding (MOU) to establish a Conservation Planning Framework Team 
consisting of four representatives from WAFWA member agencies and one 
each from BLM, FS, and FWS. The Framework Team is responsible for 
developing the range-wide conservation framework for sage-grouse 
conservation planning, and making recommendations and providing 
guidance to working groups concerning the contents of state and local 
conservation plans.
    In February-March 2004, BLM Director Clarke hosted several 
``listening meetings'' with stakeholders and state wildlife agencies in 
Colorado, Montana, Washington, Oregon, Utah, Nevada, and Wyoming on 
sage-grouse conservation planning. The BLM has rewritten its interim 
Management Guidance to address concerns raised at the meetings.
    In July 2004, the BLM expects to issue its National Sage-Grouse 
Habitat Conservation Strategy which will set out a framework for 
conservation of sage-grouse and associated sagebrush habitats on lands 
administered by the BLM. The document identifies resources and actions 
necessary to support the development and implementation of BLM state-
level strategies and/or plans. The BLM's national strategy has been 
designed to deliver a substantial Federal contribution to cooperative 
conservation efforts that are being led by state wildlife agencies 
throughout the range of sage-grouse in the West.
    Cooperative conservation underlies most recent, large-scale 
conservation and land management efforts. It has produced unprecedented 
coordination across eleven Western states.
    Finally, the BLM is expending over $14 million in FY 2004 (and has 
requested an increase of $3.2 million for FY 2005) for restoration and 
conservation of sagebrush habitat. By taking proactive steps in sage 
grouse habitat conservation, we are fostering collaborative and 
voluntary measures in order to maintain flexibility in land use options 
and management.

                               CONCLUSION

    All of these BLM efforts recognize the important role played by 
ranchers in protecting the land and preserving open spaces in the West. 
The economic and social benefits of ranching in this country are many--
and the BLM strives to preserve that important part of our heritage. 
Thank you for the opportunity to testify. I would be pleased to answer 
any questions you may have.

    Senator Craig. Jim, thank you very much.
    Now let me turn to Tom Thompson. Welcome, Tom. Deputy 
Chief, National Forest System.

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE, ACCOMPANIED 
       BY JANETTE KAISER, DIRECTOR, RANGELAND MANAGEMENT

    Mr. Thompson. Thank you, Mr. Chairman, for this opportunity 
to present the subcommittee with an overview of grazing 
management in the Forest Service. With me today is Janette 
Kaiser who is the Director of our Rangeland Management Program.
    The Forest Service has been managing rangelands for nearly 
100 years and has a long history of partnerships with the 
livestock producers who rely upon National Forest System lands. 
Today there are grazing allotments on nearly half of all 
National Forest System lands, approximately 90 million acres in 
34 States. The Forest Service administers approximately 8,800 
allotments, with over 9,000 livestock permits, and about 9.7 
million animal unit months of grazing for cattle, horses, 
sheep, and goats.
    On June 25, 2003 before this subcommittee, the 
administration testified about the Forest Service's progress to 
implement section 504 of Public Law 104-19, the Rescissions 
Act. Section 504 directed the Chief to identify grazing 
allotments that needed NEPA analysis and to establish and 
adhere to a schedule for completion of that analysis. The end 
date established in that schedule was 2010.
    The 2003 Consolidated Appropriations Resolution, Public Law 
108-7, directed the Secretary of Agriculture to renew grazing 
permits for those permittees whose permits expired prior to or 
during fiscal year 2003, as the Forest Service was behind the 
schedule established for the Rescissions Act and was dealing 
with pending lawsuits.
    The 2004 Interior Appropriations Act further directed the 
Secretary to renew grazing permits that expired or transferred 
or waived between 2004 and 2008, and directed the Secretary to 
report to Congress beginning in November of this year, 2004, 
and every 2 years thereafter, the extent to which analysis 
required under applicable laws is being completed prior to the 
expiration of grazing permits.
    As the years have progressed, the Forest Service has 
continued to complete NEPA analyses on those grazing allotments 
that are listed on the schedule. As of 2004, approximately 
2,300 allotments have NEPA analysis completed. An additional 
368 allotments are scheduled for completion of NEPA analysis 
this fiscal year. The Forest Service remains committed to 
completing the environmental analysis on the remaining 
allotments by the 2010 deadline without disrupting permitted 
livestock grazing activities. In May 2004, I submitted a letter 
to the regional foresters outlining this commitment and we are 
on track to report to Congress in November on our progress.
    The Department has testified previously before this 
subcommittee that the current decision-making procedures to 
authorize livestock grazing or other activities on rangelands 
administered by the Forest Service are inflexible, unwieldy, 
time-consuming, and expensive. The agency is continuing dialog 
with our colleagues at the Bureau of Land Management and the 
Council of Environmental Quality to discuss the challenges of 
complying with NEPA in a timely and effective manner.
    This year the Forest Service updated and clarified 
direction in the Forest Service Handbook dealing with rangeland 
management decision-making and how NEPA is implemented. The 
direction clarifies existing policies on how to develop 
efficient and effective range NEPA and apply adaptive 
management on a given allotment and highlights successful 
practices currently in use that can serve to extend the life of 
a NEPA document.
    With this updated process, adaptive management is built 
into the proposed action by defining the maximum limits of what 
will be allowed on the grazing allotment in terms of 
appropriate timing, intensity, frequency, and duration of 
livestock.
    The ecological conditions of rangelands often affect the 
social and economic stability of many rural communities.
    Some national forests and national grasslands have 
established programs that encourage the grazing permittee to 
conduct much of the implementation monitoring. In some cases 
the permittee, working in conjunction with the Forest Service 
and other Federal agencies, universities, and rangeland 
consultants, has developed a successful, collaborative 
monitoring program.
    An example of this effort is in the Southwestern Region 
where the Forest Service is developing cooperative agreements 
with New Mexico State University and the University of Arizona, 
focused on collaborative monitoring. The goal of these 
agreements is to utilize expertise at the State institutions to 
help the agency develop monitoring strategies for rangelands.
    Also, the Forest Service and the National Cattlemen's Beef 
Association in April 2004 have signed a joint letter that was 
delivered to Forest Service personnel and permittees requesting 
volunteers to establish pilots for cooperative monitoring under 
this MOU to facilitate the process and lead the way for others 
to follow.
    The drought these past 6 to 8 years has persisted over much 
of the Western United States, and predictions call for more dry 
weather throughout most of the West. It will take a number of 
years of higher than average rainfall to recover from the 
drought. In 2002 and 2003, significant reductions in grazing 
use on National Forest System lands occurred in the West and 
the Western Great Plains. Although it is still too early to 
know the full effects of the drought this year, reductions in 
grazing use could still occur.
    The Forest Service has actively coordinated drought 
management with Federal, State, and local government agencies 
and officials.
    Collaboration efforts are tremendously important, as has 
already been pointed out. The Forest Service has been working 
with our partners in the livestock industry to improve 
coordination and communication in particular since the drought 
has affected rangelands throughout the West.
    Recently a unit in the Forest Service implemented a 
different process to work with the ranching community to 
incorporate values and economic needs of the ranching industry 
consistent with sound rangeland administration. On the Tonto 
National Forest, this effort, as has been described, shows a 
lot of promise. Through a collaborative effort, both the Forest 
Service, the Tonto and the Southwestern Region, and the Arizona 
Cattle Growers' Association have developed a process to allow 
for the return of livestock as drought conditions improve. 
Implementation of this process I think reaffirms the Forest 
Service's commitment to multiple use management.
    This concludes my statement. I would thank the committee 
for their interest in this program and our progress. I would be 
pleased to answer any questions that you might have.
    [The prepared statement of Mr. Thompson follows:]

   Prepared Statement of Tom Thompson, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the subcommittee with an overview of grazing 
management in the Forest Service. The Forest Service has been managing 
rangelands for nearly 100 years, and has a long history of partnerships 
with livestock producers who rely upon National Forest System (NFS) 
lands. Livestock grazing on National Forests reserved from the public 
domain is administered under a number of statutes, including the 
Granger-Thye Act of 1950, the Multiple-Use Sustained-Yield Act of 1960, 
the Forest and Rangeland Renewable Resources Planning Act of 1974, and 
the Federal Land Policy and Management Act of 1976, among others. These 
laws augment the authority in the Organic Act of 1897, which 
established the National Forests and directed the agency to regulate 
the use and occupancy of the forests to protect them from destruction.
    Today, there are grazing allotments on nearly half of all National 
Forest System lands, approximately 90 million acres of land in 34 
states. The Forest Service administers approximately 8800 allotments, 
with over 9000 livestock permits, and about 9.7 million animal unit 
months of grazing by cattle, horses, sheep, and goats. Nearly all this 
permitted grazing is located in the Western states (99%), with only 
about one percent occurring in the Eastern forests.

                     GRAZING PERMIT ADMINISTRATION

    On June 25, 2003, before this Subcommittee, the Administration 
testified about the Forest Service's progress to implement Section 504 
of Public Law 104-19 (the ``Rescissions Act''). Section 504 directed 
the Chief to identify grazing allotments that needed NEPA analysis and 
to ``establish and adhere to'' a schedule for the completion of that 
analysis. The end date established in the schedule was 2010. The 
Rescissions Act was needed because the Forest Service faced a daunting 
challenge in 1995 to complete the NEPA process on 6,886 allotments, 
with approximately \1/2\ of these Forest Service grazing permits due to 
expire.
    The 2003 Consolidated Appropriations Resolution, Public Law 108-7 
(as amended by the 2003 Emergency Wartime Supplemental Appropriations 
Act) directed the Secretary of Agriculture to renew grazing permits for 
those permittees whose permits expired prior to or during fiscal year 
2003, as the Forest Service was behind the schedule established for the 
Rescissions Act and was dealing with pending lawsuits. NEPA analyses 
will still have to be completed on these allotments and the terms and 
conditions of the renewed grazing permit will remain in effect until 
such time as the analysis is completed.
    The 2004 Interior Appropriations Act (P.L. 108-108) further 
directed the Secretary to renew grazing permits that expired are 
transferred or waived between 2004 and 2008, and directed the Secretary 
to report to Congress beginning in November 2004, and every two years 
thereafter, the extent to which analysis required under applicable laws 
is being completed prior to the expiration of grazing permits.
    As the years have progressed, the Forest Service has continued to 
complete NEPA analyses on those grazing allotments that are listed on 
the schedule. As of February 2004, approximately 2300 allotments have 
NEPA analysis completed. An additional 368 allotments are scheduled for 
completion of NEPA analysis this fiscal year. The Forest Service 
remains committed to completing the environmental analysis on the 
remaining allotments by the 2010 deadline without disrupting permitted 
livestock grazing activities. In May 2004, I submitted a letter to 
Regional Foresters outlining this commitment and we are on track to 
report to Congress in November on our progress.

                      GRAZING PERMIT EFFICIENCIES

    The Department has testified previously before this Subcommittee 
that the current decision-making procedures to authorize livestock 
grazing or other activities on rangelands administered by the Forest 
Service are inflexible, unwieldy, time-consuming, and expensive. For 
several years, the Forest Service has evaluated alternative procedures 
that would satisfy our legal obligations, provide the agency with 
management flexibility, shorten the decision-making time, and reduce 
the cost to the taxpayer associated with rangeland management 
decisions. The agency is continuing dialogue with our colleagues at the 
Bureau of Land Management and the Council on Environmental Quality 
(CEQ) to discuss the challenges of complying with NEPA in a timely and 
effective manner. In addition, the agency is working on methods of 
prioritization through the development and use of qualitative tools 
that assess rangeland health and sustainability through the use of 
indicators that are linked to existing monitoring data.

     EFFICIENT AND EFFECTIVE NEPA ANALYSIS AND RANGELAND DECISIONS

    This-year the Forest Service updated and clarified direction in the 
Forest Service Handbook dealing with rangeland management decision-
making and how NEPA is implemented. The direction clarifies existing 
policies on how to develop efficient and effective range NEPA and apply 
adaptive management on a given allotment and highlights successful 
practices currently in use that can serve to extend the life of the 
NEPA document. This new directive will help the agency move forward in 
completing environmental analysis in an expedited manner on those 
allotments still remaining on the 1996 Rescission Act schedule.
    With this updated process adaptive management is built into the 
proposed action by defining the maximum limits of what will be allowed 
on the grazing allotment in terms of the appropriate timing, intensity, 
frequency, and duration of livestock grazing. Standards are set that 
can be checked with implementation monitoring to determine if 
prescribed actions have been followed or if management changes are 
needed. Carefully focused monitoring will allow for adjustments.

                               MONITORING

    The ecological conditions of rangelands often affect the social and 
economic stability of many rural communities. To assure these lands are 
capable of providing sustainable products for future generations, the 
ecological conditions of these lands are monitored against specific 
standards. Implementation and effectiveness monitoring are the two 
types of monitoring that the Agency uses. Implementation monitoring is 
an annual measurement of rangeland resources, such as vegetation use, 
to assure permit compliance with written instructions. Effectiveness 
monitoring is long-term (5-6 years) where rangeland resources are 
monitored to assess whether prescriptions and objectives set forth in 
Forest Plans, allotment management plans or other relevant documents 
are being met.
    Some National Forests and National Grasslands have established 
programs that encourage the grazing permittee to conduct much of the 
implementation monitoring. In some instances the permittee, working in 
conjunction with the Forest Service, other Federal agencies, 
universities and rangeland consultants, has developed a successful, 
collaborative monitoring program.
    An example of this type of effort is in the Southwestern Region 
where the Forest Service is developing cooperative agreements with New 
Mexico State University and the University of Arizona focused on 
collaborative monitoring. The goal of the agreements is to utilize 
expertise at State institutions to help the agency develop monitoring 
strategies for rangelands. For example, the agreement with the 
University of Arizona will focus on improving monitoring data 
collection and analysis related to natural resource management; 
developing collaborative opportunities between the Forest Service and 
non-governmental entities and organizations to monitor the ecological 
trends of national forest rangelands in Arizona; establishing uniform 
monitoring protocols that everyone understands; enhancing data 
collection processes, training, and reporting methods; and increasing 
the number of national forest allotments being monitored.
    The Forest Service has worked with industry representatives over 
the years regarding implementation and effectiveness monitoring. This 
year we signed a national Memorandum of Understanding (MOU) with the 
Public Lands Council of the National Cattlemen's Beef Association 
(NCBA) for the implementation of a cooperative rangeland monitoring 
program. This program establishes a framework for voluntary, 
collaborative work between grazing permittees and the Forest Service to 
improve the quality and quantity of short- and long-term allotment 
level monitoring on National Forest System rangelands.
    Also, the Forest Service and NCBA in April 2004 signed a joint 
letter that was delivered to Forest Service personnel and permittees 
requesting volunteers to establish pilots for cooperative monitoring 
under this MOU to facilitate the process and lead the way for others to 
follow. This is a great opportunity for both entities to collaborate on 
long-term goals and objectives for rangeland resources.
    The House report accompanying the Department of the Interior and 
Related Agencies Appropriations Act of 2002 directed the Secretary of 
the Interior and the Secretary of Agriculture to prepare a report on 
how the Departments would address the long-term monitoring, ecological 
classification of vegetation and soil survey work which is needed to 
efficiently address rangeland conditions. This report is still being 
drafted.

                                DROUGHT

    For the past 6 to 8 years drought has persisted over much of the 
Western United States. Predictions for this year call for more dry 
weather throughout most of the West. Although there has been some 
winter and spring precipitation over wide areas, in particular in New 
Mexico, Arizona, and the Southern Rockies, much of the West continues 
to have a significant water deficit. It will take a number of years of 
higher than average rainfall to recover from the drought. In 2002 and 
2003, significant reductions in grazing use on National Forest System 
lands occurred throughout the West and the Western Great Plains. 
Although it is still too early to know the full effects of the drought, 
reductions in grazing use for 2004 could still occur.
    The Forest Service has actively coordinated drought management with 
Federal, State, and local government agencies and officials. The agency 
is actively participating on national, State, and local drought task 
forces coordinating drought relief to our permittees. We are working 
closely with industry representatives to provide up-front information 
about what we are doing and seeking input from them.
    Locally, the Forest Service is managing drought impacts on a case-
by-case basis. Local officials are communicating early to ensure the 
permittee is informed and has enough time to implement temporary 
changes or along-term strategy. The Agency is coordinating with 
universities and user groups to best address the concerns at the local 
level.

                         COLLABORATION EFFORTS

    The Forest Service has been working with our partners in the 
livestock industry to improve coordination and communication, in 
particular since the drought has affected rangelands in the Interior 
West and Southwest. The agency recognizes that ranching is an important 
component of the economies of many western rural communities as well as 
the contribution of livestock production.
    Recently, a unit in the Forest Service implemented a different 
process to work with the ranching community to incorporate the values 
and economic needs of the ranching industry consistent with sound range 
administration. Over the years, as the drought and other range 
management issues have increased, reductions in the number of livestock 
that could be sustained on Federal lands has been seriously reduced due 
to very little forage or water. On the Tonto National Forest in 
Arizona, this has meant up to an 80% reduction of annual grazing use 
has occurred. As livestock were removed, the agency recognized that a 
process needed to be developed to ensure all parties interested in 
grazing management were involved in coordinating the restocking of 
allotments when conditions allowed livestock to return.
    Through a collaborative effort between the Forest Service (the 
Tonto National Forest and the Southwestern Region), the Arizona Cattle 
Growers Association, and the Gila County Cattle Growers Association, 
the Tonto Restocking Process was developed to allow the return of 
livestock as drought conditions improved. Implementation of this 
process reaffirms the Forest Service's commitment to multiple-use 
management. The process offers an opportunity to rebuild trust between 
the agency and the ranching industry and provides a broader perspective 
for the agency to administer National Forest lands collaboratively with 
important forest stakeholders.

                            INVASIVE SPECIES

    Rangelands are an important component of ecosystem diversity at a 
national scale. Key factors to rangeland health are sustainable use and 
proper management. The Forest Service works with other land managers to 
ensure rangelands are productive for current and future use.
    Invasive species has been identified by the Chief of the Forest 
Service as one of the four significant threats to our Nation's forest 
and rangeland ecosystems. Invasive species have been characterized as a 
``catastrophic wildfire in slow motion.'' Thousands of invasive plants, 
insects, and other species have infested hundreds of million of acres 
of land and water across the Nation, causing massive disruption to 
ecosystem function, reducing biodiversity, and degrading ecosystem 
health. Invasive organisms not only affect the health of America's 
forests and rangelands but also the health of wildlife, livestock, 
fish, and humans.
    To address its role in this issue the Forest Service recently 
assessed its capacity in forest research and forest and rangeland 
health. The agency has found the best opportunity for contributing to 
success is managing the agency's invasive species efforts will come 
from working strategically using all of our scientific, management, and 
partnership resources. Soon, the Forest Service will release a National 
Strategy and Implementation Plan for Invasive Species which will 
outline short and long term goals for their management and control. The 
agency is working collaboratively with our partners to improve the 
capacity for handling invasive species across landscapes and streamline 
procedures so actions can be taken quickly before the invasion spreads 
rapidly.
    As the agency implements this national strategy, our actions will 
be proactive rather than reactive, holistic across multiple 
jurisdictions and ownerships, and collaborative in nature. Invasive 
species management is more than just a forest or rangeland issue, it is 
an ecosystem and biodiversity issue, and therefore the Forest Service 
will work with all who are interested to help promote the eradication 
or control of invasives wherever they occur.
    This concludes my statement. I want to thank the Committee for 
their interest in rangeland management in the Forest Service. I would 
be pleased to answer any questions that you may have.

    Senator Craig. Well, thank you both very much. I do have 
some questions. I will proceed through those as rapidly as I 
can.
    To both of you, have the push by Congress and the resulting 
effort on your parts, as it relates to dealing with the backlog 
of processing permits, in any way diminished the ability of the 
agency to conduct other aspects of the range management 
programs that you have?
    Mr. Thompson. Obviously, we have a limited number of people 
and the effort that is going on on the NEPA side is taking away 
from people being able to do monitoring and do other work that 
needs to be done. There have been big challenges in stretching 
the people that we have, and we have fewer people in the range 
program today than we had 10-20 years ago, for sure. It is 
stretching people thin. Certainly the effort that is put into 
lawsuits and other things also detracts from the ability to do 
monitoring, to do range administration on the ground.
    Mr. Hughes. I think that is a good synopsis for the BLM 
also. We have our range people involved in our regulation 
reform. We have them involved in the sage grouse effort that we 
are trying to help to prevent a listing. We have our people 
involved in a national vegetative EIS study that is ongoing 
that will allow us to better attack invasive weeds. All of 
these put a strain on the work force. I cannot give them 
anything more to do. There are a lot of innovative things. 
People come to us with ideas that we just do not have the 
manpower to do because they are busy doing this or they are in 
court or they are preparing environmental assessments.
    Senator Craig. Well, the BLM has moved ahead with 
reasonable speed. Your numbers are down substantially from 
where they were.
    Tom, let me ask you a similar question. You have indicated 
that from 1995 through the end of this year, the Forest Service 
will have completed about 2,668 out of the 9,000 permits, which 
equates to a little over 266 permits per year, if you average 
that out. If I am doing my math correctly, you have 
approximately 6,332 more permits to complete by 2010, and at 
the rate of 368 permits per year, I think you know where I am 
going. It will take you approximately 17.2 more years to clear 
the expected backlog.
    Would you mind telling me exactly what steps you have taken 
or will take to ensure that by 2010 you can guarantee me and 
this committee and the Congress that the agency will meet the 
commitment you just made in your testimony today?
    Mr. Thompson. I can tell you what steps we have taken. I am 
going to be short on guarantees. What I will say is we are 
committed to doing the NEPA that we need to do.
    We have been working hard at trying to improve the permit 
decision-making process. We have just issued chapter 90 which 
describes approaches that help the field folks better stage and 
understand how they can use adaptive management and monitoring 
and understand the levels of decisions that need to be made.
    There are process issues involved here, and to a large 
extent, I think the complexity of some of the forested lands 
where we have rangeland permits at the same time adds to that 
complexity. The land differences between a lot of the BLM and 
most of the Forest Service adds a level of complexity. I 
suppose one could also understand that there is a certain level 
of increased scrutiny that comes from that. So the pressures to 
produce and get more specific with that complexity are great.
    I think we have two main issues. One is process. The other 
one are the resources, the people to accomplish the work. 
Obviously, the drought has diverted a lot of that attention. 
Lawsuits have diverted some that attention. All of those things 
are out of our control.
    We are working hard. Our folks are working hard. Some 
regions are making more progress than others. But we are 
working hard to meet the schedule, but your math is not wrong.
    Senator Craig. Well, is 2010 unrealistic? We ought to know 
that sooner rather than later.
    Mr. Thompson. On the schedule that we are on, it is not 
likely that we will be able to meet all those completed, but we 
are putting all of our energy forth to try to do everything 
that we can. We hope that we can make some gains in process 
that would allow us to increase the numbers that we would be 
able to accomplish in the next few years.
    Senator Craig. Well, in your testimony you said that the 
agency is continuing a dialog with our colleagues at the Bureau 
of Land Management and the Council on Environmental Quality to 
discuss the challenges of complying with NEPA in a timely and 
effective manner. In addition, the agency is working on methods 
of prioritizing through the development and use of qualitative 
tools that assess rangeland health and sustainability through 
the use of indicators that are linked to existing monitoring 
data.
    I guess when I read statements like that--I did not know 
that this is a new science that we are just developing. I 
thought the science was somewhat complete, while it evolves a 
little bit, and I understand complexities. I am a bit 
frustrated. How much time is being spent and how many people 
are being spent in that last statement versus just getting on 
with the business of, if you will, moving this process?
    Mr. Thompson. Well, again, Mr. Chairman, the folks in the 
field have been using the processes as best they can and as 
best they knew. For example, when I spoke of chapter 90, I 
think it helped the field to understand how to sort through the 
process better. It does not answer all the questions. They 
still have to go through the process for all permits. What we 
were trying to do and what I hope that we may be able to do 
would be to sort through those and in some cases do a lesser 
amount of analysis than others. Those kinds of tools, though, 
have got to be worked out collaboratively, and I think 
certainly we would encourage and be pleased to work with not 
only the BLM but the committee in trying to identify what some 
more of those might be.
    Senator Craig. Has the Chief laid down hard targets to be 
met on an annualized basis that drive you toward the 2010 
number?
    Mr. Thompson. Early on, we had a schedule, obviously, and 
that was what was laid out. There has been, obviously, a lot of 
slippage in that schedule. We have attempted each year to do 
what was reasonable given the people that we had to accomplish, 
and I think the numbers that we have this year are certainly 
not what they should be to get back on schedule, but they are 
what we think we could reasonably do this year.
    Senator Craig. Have requests been made for more money and 
more personnel specific to meeting goals and targets, and 
driving toward a 2010 number?
    Mr. Thompson. I could share what our schedule is as far as 
accomplishment and what we expect in a number of different 
forms, by region, by forest. I do believe that funding is an 
issue.
    Senator Craig. If funding is an issue, have you requested 
more funding specific for this purpose?
    Mr. Thompson. Let me maybe ask Director Kaiser if she would 
like to talk a little bit about this target issue because she 
might be able to answer it better.
    Senator Craig. Surely.
    Ms. Kaiser. I think what the agency is struggling with is a 
matter of priorities. I think that the last submission, last 
budget request, was slightly down, and that just has to do with 
priorities. We continue to try to raise the issue within the 
agency and balance those priorities.
    As you know, we are dealing with Healthy Forests 
initiatives and we just came through the Healthy Forest 
Restoration Act legislation, and we are again trying to double 
our efforts to meet those demands. Those have to be worked out 
in terms of priorities.
    Senator Craig. Well, it obviously is very frustrating to me 
and to a good many people. We have got substantial demands out 
there. We have got lawsuits. We have begged off from those and 
addressed these problems with some of our colleagues by what we 
put in budgets and what we put in for time lines for completion 
and commitments, public commitments, for this purpose. If 
priorities get skewed in the absence of resources, then you 
really need to help us by giving us tools with which to argue 
for additional resources. Whether we get it or not, that is 
partly our burden, but if we do not get those numbers, if it is 
a matter of shifting around inside the agency and we do not 
meet these targets, then are we really going to solve some of 
the other resource problems that probably some of my friends 
out in Idaho are going to want to meet you in court with? I say 
``friends'' with some degree of question mark behind it. But 
the reality is there are a lot of critics out there, and I 
would much prefer being a friend than a critic in helping you 
facilitate what I see as a substantial problem because of not 
only the absence of the permit renewal, but the process and 
therefore the liability that grows.
    Mr. Thompson. Mr. Chairman, I have spoken with nearly each 
of the regional foresters the last few days that have the bulk 
of this issue, and they are all very concerned with the ability 
to be where we need to be by 2008 or 2010. We are talking about 
different approaches and different ways to step up and try to 
do it, but it is a balance between what we have the capability 
to do right now and the processes that we are saddled with to 
go through across the board. And the diversions that are 
happening, as Ms. Kaiser said, with other priorities that seem 
to be ringing in. And obviously, even a number of our range 
people in the last few years are on overhead, fire crews, and 
get called off when we shut down basically everything in the 
agency for a month or 2. It is very difficult. It is a 
difficult time.
    Senator Craig. Well, we are going to continue to work with 
you and push you.
    Mr. Thompson. Thank you. We look forward to working with 
the committee.
    Senator Craig. Jim, I want to talk about wild horses and 
burros for a moment. First, please explain what you mean by a 
holding facility.
    Mr. Hughes. I think we have what I would call three types 
of holding facilities. First, we have corral facilities, where 
we bring the animals in from the field. They are looked over 
for which ones will be adopted and which ones may have health 
problems. We have vets look at them.
    From there, they may go to long-term holding facilities. 
Some people call them sanctuaries. We have several of those in 
the Midwest and elsewhere. I happened to visit one recently in 
the tall grass prairie country. We have seven of those. We have 
2,000 head on each of those, and we are trying to contract for 
three more.
    Then we also have training facilities.
    Senator Craig. 2,000 head on how many acres?
    Mr. Hughes. Ed?
    Mr. Shepard. These are approximately 15,000- to 20,000-acre 
ranches.
    Senator Craig. Ranches, not public land, but ranches that 
have been leased for this purpose?
    Mr. Shepard. Private land contracted out for this purpose.
    Senator Craig. How much are those ranchers getting per 
animal?
    Mr. Shepard. Depending on which contractor, it is between 
$1.22 and $1.25 per day.
    Senator Craig. Per day. Sounds like a good business.
    Mr. Hughes. And then we also have what we call our training 
facilities. We have six. Five are prison facilities and one is 
a private contract facility. They hold between 50 and 200 
horses each. Typically at the training facilities, those horses 
are adopted directly right from the training facility.
    Senator Craig. What is the rate of adoption compared with 
10 years ago?
    Mr. Shepard. The average over time has been somewhere 
around 7,000 animals per year. We are down a little bit. Last 
year I think it was 6,100 and we are looking somewhere in that 
neighborhood again for this year.
    Senator Craig. What is the rate of increase in those that 
are not adopted out? Are you holding yourselves even?
    Mr. Shepard. No.
    Mr. Hughes. No.
    Senator Craig. You are not. That is right.
    Does the BLM have any other means of dealing with managing 
horse populations other than gatherings, adoptions, and holding 
facilities?
    Mr. Shepard. About the only other method that we have is 
fertility control, and we are looking at that in a research 
capacity now. That is long-term, looking into the future. That 
does nothing to get excess animals off of the range now, but in 
the future, once we do get down to appropriate management 
levels, fertility drugs will help us keep the herds down and 
help us manage to stay within the appropriate management 
levels.
    Senator Craig. I understand and you have mentioned in your 
testimony you have reprogrammed money because you are running 
out of money for this purpose.
    Mr. Hughes. That is correct. One of the problems we face, 
Senator, is if we do not get those numbers down, with the 
reproduction rate of the horses, we go back almost to base one. 
We are actually extremely close right now to getting to that 
break-even point, where if we can get these excess horses down 
to the appropriate management levels, then our adoption 
program, as well as our fertility control program, will keep 
that level in the out-years. We are probably as close as we 
have ever been to hitting that mark, but that may take us 2 or 
3 more years of heavy removal of horses.
    Senator Craig. Excuse me.
    Mr. Hughes. That may take us 2 or 3 years to get to that 
appropriate management level, but we are probably as close as 
we have ever been in this program since the passage of the act.
    Senator Craig. We really need to resurrect the image of--
was it Wild Horse Mary or Annie?
    Mr. Hughes. Annie.
    Senator Craig. She might become a friend of mine and a 
critic of yours because I do not think this was her vision, 
that all of a sudden you would grow into the business of 
warehousing horses, all in the romantic idea that somehow they 
were floating across the Western rangeland as this awesome 
image of great open spaces now that you are inventorying them 
on ranches and paying ranchers to warehouse them.
    Well, you are not to be criticized. We are for creating a 
silly law that has put you where you are with this. Maybe it is 
time we review this. I do not mind tackling it a bit. Probably 
the numbers on the open ranges ought to be reduced 
substantially too.
    One thing about a horse. It is more destructive to 
rangeland than a wildfire because they are there all the time, 
and just simply grind it into the ground and we know that. Now 
we are spending literally tens of millions of dollars a year 
warehousing horses.
    Well, I am not going to be critical of you, but I have been 
to your holding facilities. I have been to your corrals. I have 
seen a phenomenal waste of resource and good human talent 
simply to feed a bunch of hay-burners. That is really a public 
policy run amok. If we could resurrect the image of Wild Horse 
Annie, she would probably agree with me. She might not agree on 
the end result I would propose, but she might agree with me on 
the envisionment or at least the reality of the program to 
where it has taken us today.
    Well, enough of that. You have spent a good deal of time 
with us. I have got a couple of more questions that I will 
submit to you in writing. To all of you, thank you very much 
for taking time with us today.
    The issue of timely permit processing is not going to go 
away. We have got to get this work completed, and if we cannot 
complete it timely, then come to us and ask for resources and 
we will see if we cannot get there. I understand diversions. I 
understand fires. I understand the situation we have caused 
ourselves to be in with our forested lands and what we have 
tried to do through Healthy Forests to facilitate that. But 
draining resources away that ultimately create another 
liability that might put in jeopardy our livestock producers 
that are trying to do a good job out there is really not a way 
to run a business. I do believe you are in the business of 
marketing grass. I think that is a responsible part of resource 
management.
    Thank you all very much for being here today. We appreciate 
it.
    The subcommittee will stand adjourned.
    [Whereupon, at 5:37 p.m., the hearing was adjourned.]
    [The following letter was received for the record:]

                            The Wilderness Society,
                         Bureau of Land Management Program,
                                     Washington, DC, June 25, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Domenici and Senator Bingaman: Attached is a copy of 
the comments submitted by The Wilderness Society to the Bureau of Land 
Management on March 1, 2004 regarding the Bureau's proposed changes to 
43 CFR Part 4100, published on December 8, 2003.
    We request that our comments on the BLM's proposed grazing rules be 
incorporated into the hearing record of the Public Lands and Forests 
hearing on June 23, 2004 regarding the livestock grazing programs of 
the USDA Forest Service and Bureau of Land Management
    Thank you for your attention to this request.
            Sincerely,
                                         David Alberswerth,
                                                          Director.
[Enclosure.]
                            The Wilderness Society,
                         Bureau of Land Management Program,
                                     Washington, DC, March 1, 2004.
Director,
Bureau of Land Management, Eastern States Office, Springfield, VA.

Re: Proposed changes to 43 CFR Part 4100, proposed on December 8, 2003

    To Whom It May Concern: These comments are submitted on behalf of 
The Wilderness Society.
    In general, we are not persuaded from the information provided by 
the Bureau of Land Management in either its ``supplementary 
information'' accompanying the above referenced proposal, or in the 
accompanying Environmental Impact Statement, that any of the changes 
proposed to the current livestock gazing rules are warranted. No 
demonstrable hardships on the beneficiaries of the BLM's current 
grazing program are documented anywhere in the proposal. Nor is there 
any documentation that the current rules, adopted less than ten years 
ago, have been in place for a sufficient time to demonstrate verifiable 
progress toward meeting the goals of rangeland health which are 
articulated in the 1995 program.
    The 1995 rules provide a balanced management framework for the 
grazing of livestock on the public lands, while assuring that grazing 
occurs only under conditions that protect the ecological integrity of 
those lands. On the other hand, the proposed rule changes taken 
together appear to: (1) weaken the BLM's commitment to ensuring the 
restoration of healthy range ecosystems by lengthening the timeframes 
and opportunities for range improvement initiatives to be implemented, 
and apparently raising the evidentiary burden on the BLM to verify the 
necessity of management changes that are required to insure rangeland 
health; (2) give away one of the public's most valuable assets 
occurring on the public rangelands--water--to the beneficiaries of the 
grazing program; (3) open the door to future ``takings'' claims by 
permittees by allowing the private ownership of permanent range 
improvements on public lands; (4) cut the public out of important 
decision-making opportunities in a variety of ways; and, as a 
consequence of these proposed changes, (5) unnecessarily raise 
controversies over livestock grazing policies which were settled to the 
satisfaction of the federal courts in Public Lands Council v. Babbitt, 
929 F.Supp.1436. Our specific comments on several aspects of the 
proposal follow.
    Timeframes for decision making and monitoring--4180.2(c)--Under the 
proposal, it appears that the BLM cannot mandate any changes in 
management practices for 2 years after it is determined that changes 
are needed to comply with rangeland health standards. Subsequently, 
adjustments in grazing use must be phased in over a 5-year period. In 
addition, it appears that the BLM has unnecessarily raised the burden 
of proof on itself to justify management changes by requiring years of 
monitoring data before management changes can be mandated.
    The history of restoring damaged public rangelands as a consequence 
of abusive grazing practices has been characterized by its glacial 
pace. For decades the Bureau has recognized that far too much of the 
BLM's rangelands and ecological values therein have not recovered from 
the damaging effects of grazing practices that took place many decades 
ago, as well as at the present time. For example, the EIS accompanying 
the proposed rule documents the disappointing results of the Bureau's 
efforts to date with regard to meeting the 1990 Riparian Wetland 
Initiative goal of having 75 percent of these areas in proper 
functioning condition by 1997. According to the EIS, only 42 percent of 
the BLM's ``lotic'' areas were classified as in proper functioning 
condition as of 2001 (BLM, Proposed Revisions to Grazing Regulations 
for the Public Lands, Draft Environmental Impact Statement, DES 03-62, 
p., 3-20, December 2003.). One might expect from these disappointing 
results that the BLM would propose measures to accelerate the 
improvement of these critically important areas of the public lands, 
rather than proposing, as it does here, a relaxation of its program to 
assure the restoration and proper management of these key ecological 
values.
    The 1995 rules struck a balance between the need to manage 
livestock grazing in a manner that led to the restoration and 
maintenance of healthy range ecosystems, while mitigating the impacts 
on permittees who depend on their BLM grazing permits to maintain their 
livestock operations. Unfortunately, that balance is now being upset, 
and the impact of the changes proposed here will be to slow down and 
diminish any progress that can be made in improving the condition of 
public rangelands since the current rules went into effect.
    Moreover, as a consequence of the insertion of new language and the 
deletion of existing language at 4180.2(c), the BLM has made it more 
difficult for itself to mandate changes in management to secure range 
condition improvement. Under the new formulation, the BLM can take 
action only ``through standards assessment and monitoring''. Does this 
mean that in instances where contemporaneous and immediate photographic 
documentation demonstrates clearly that the cause of degradation to a 
particular area--say, for example, a spring or riparian area--was 
caused by livestock (i.e., heavy trampling, denuded vegetation, 
excessive amounts of cattle excrement, bloated or desiccated livestock 
carcasses, etc.), that the BLM must rely instead on extensive 
``monitoring'' data gathered over a lengthy period of time in order to 
justify remedial or corrective action?
    In summary, these changes will lead to unnecessary delays in the 
restoration of range and riparian ecosystem health, and we ask that the 
BLM reject the proposed changes and stick with the present program.
    Water Rights--Sec. 4120.39 proposes to remove the requirement that 
water rights for livestock grazing on the public lands be held 
exclusively by the United States, and allow instead those rights to be 
acquired by the permittee. The proposal is analogous to allowing a 
tenant of a private ranch to acquire the water rights to that ranch 
(without compensation to the property owner!), and concurrently 
prohibiting the owner of the ranch from establishing water rights on 
her property.
    As stewards of the public trust, the BLM should not allow this 
policy to go forward. Water is a precious natural resource, especially 
in the arid and semi-arid regions of the western U.S. where livestock 
grazing on the public lands takes place. The owners of these lands--
U.S. citizens--as a matter of policy should maintain the sole right to 
establish rights to water on these lands. The establishment of federal 
rights to water on the federal lands does not preclude the use of that 
water by livestock permittees. But BLM, as stewards of this public 
trust, should not adopt a program that allows this resource to be 
acquired by those who do not own these lands.
    The establishment of private water rights on public rangelands will 
complicate the BLM's ability to manage these lands in the future, 
especially in situations where it becomes necessary to take enforcement 
actions against permittees who are not in compliance with permit terms, 
by providing such permittees an opportunity to assert their belief that 
their acquisition of a water right on these lands has effectively 
vested them with a property right to the lands themselves. We are 
unaware of any State government that allows state livestock permittees 
to acquire water rights on State lands. Nor does the USDA Forest 
Service. The United States government should not allow this practice on 
lands managed by the BLM, either.
    Ownership of Range Improvements--The BLM has proposed at 4120.3 
that permittees may be granted ownership of permanent range 
improvements. As with the proposal to allow water rights to vest with 
permittees, this ownership of permanent range improvements by 
permittees is a ``foot in the door'' to the conveyance of public lands 
into private hands. The ownership of temporary improvements to 
facilitate the handling of livestock is not a problem. But if 
permittees are allowed to acquire title to permanent improvements such 
as stock tanks, fences, corrals, etc., the BLM is placing itself in an 
awkward situation in cases where violations of range management rules 
and statutes by a permittee who has acquired the water rights and owns 
permanent improvements argues that his eviction from the allotment 
warrants compensation for the ``taking'' of his property. The BLM 
should drop this proposal.
    Public Participation--The 1995 rules provided for important 
opportunities for the public--that is, the landowners--to participate 
in key management decisions regarding grazing on the public lands. 
Unfortunately, the proposed rule eviscerates these opportunities for 
public participation in range management decisions. Ironically, this 
comes at a time when Secretary of the Interior Norton seldom misses an 
opportunity to express her ``policy'' that public land management 
should be guided by the ``4 C's'': ``Consultation, Cooperation, and 
Communication in the cause of Conservation.'' According to the 
Supplementary Information, however, the BLM will no longer be bound to 
offer the public opportunities to comment on: (1) adjustments to 
allotment boundaries; (2) changes in grazing preference; (3) emergency 
closures; (4) renewal or issuance of permits and leases; (5) 
modifications to permits and leases; (6) the issuance of temporary and 
non-renewable grazing permits. We strongly urge that the BLM reconsider 
its proposal to so severely constrain the opportunities for Americans 
to participate in these decisions. We are especially concerned that the 
public will not be afforded opportunities to participate in decisions 
involving changing in grazing preference, renewal and issuance of 
permits and leases, and modification to permits and leases.
    Conservation use--Finally, a word about the removal of any 
reference to the concept of ``conservation use'' in the proposed rule. 
We understand that the courts have ruled against the legality of the 
``conservation use'' program, as articulated in the 1995 rule. However, 
the BLM has missed an opportunity to put forth a legally viable 
alternative proposal to allow the voluntary purchase of animal unit 
months for purposes of their permanent retirement. Such arrangements, 
where permittees willingly sell their AUMs to conservation 
organizations or individuals who wish to retire them, can have 
substantial economic and environmental benefits for all the parties 
involved in such transactions, including the BLM. Since the BLM missed 
the opportunity here to offer alternatives to the ``conservation use'' 
provisions of the existing rule, we recommend-that the BLM convene a 
forum representative of permittees, conservationists, and agency 
representatives to explore regulatory options that may be considered in 
order to take facilitate ``willing seller/willing buyer'' grazing 
permit retirement opportunities when they arise.
            Sincerely,
                                         David Alberswerth,
                                                          Director.


</pre></body></html>
